RECORD:

APPellate Docket

21"7

ElectronicallY Filed
Supreme Court
scAD-19-0000561
09-sEP-2020
10:35 AM

scAD-19-0000561-

INTHESUPREMEcoURToFTHESTATEoFHAWAI.I
OFFICB OF DISCIPLINARY COUNSEL,

Petitioner'
VS.

GARY VICTOR DUBIN'

ResPondent

-

ORIGINAL PROCEEDING
(oDC Case Nos . :-6-C.-L4'7, 16-0-151, 1-6-0-21"3' and 16-0-326)
ORDER OF DISBARMENT

(By: Recktenwald, C-J., NakaYama, McKenna' and Wilson, JJ
Leonard,
and Tntermediate Court of APPeaIs Associate Judge
assigned bY reason of vacancy)

Uponathoroughandcarefulreviewoftheentire
parties,
record in this matter, and the briefs submitted by the
that
we find and conclude, bY clear and convincing evidence,
Respondent. Gary

v. Dubin, committed the fol-lowing misconduct'

TnofficeofDisciplinary(oDC)CaseNo.15-o_15]-'we
(c) of
find and conclude that Respondent Dubin vio]ated Rule B ' 4
the Hawai'i Rules of Professional- Conduct (L994) by knowingly

misrepresent.ing the truth on a government' form on which
certified the information thereon was true '

he

, we f ind and concl"ude that
the
Respondent Dubin viol-ated HRPC RuIe 8.4 (c) (2014) by signing
In

oDC Case

No.

1-6-O-L4'7

namesofhisclients,wit'houttheirpermission,inthe
made out
endorsement section of a 5I32r 000.00 settl-ement check
to them afone and depositing it in his client. trust account,
therebygainingcontroloverthosefunds.Wefindhedidnot
when
immediately inform the clients of the receipt of the check
he learned of it. we also find the invoice he subsequently
issued to the clients on November 7, 2oL5 was the first bilring
statement or accounting since the inception of his
representation of t.hem in February 2012, wherein he asserted

$69,To2.STinfeesandcostsowing,baseduponanhourlyrateof
find and
$385.00 an hour for associates on the case' We
conclude that this rate was unreasonable because it exceeded

by

agreement
$115.00 per hour the rate agreed upon in the retainer
for associates and was also applied to one associate for work

practice
done at a time when that associate was not licensed to
law in this jurisdict.ion. we also find the cl-ients were never
contacted or consul-ted regarding an amendment of the agreed-upon
rate. We find that, dS a result, Dubin overcharged the clients

885.00. we conclude Respondent Dubi-n's conduct
in this regard violated HRPC Rul-es 1'5(a) ' 1'5(b)' 8'4(c) and

a

minj-mum

of

$19r

2

to timely inform the clj-ents of the
receipt of the check, and once by failing for more than three
years to communicate with the clients regarding the status of
1.4 (a) (3) (once for failing

their account) (2014) .
we find and conclude that, in oDC case No. L6-O-326,
Respondent Dubin wi-thdrew $3,500.00 of the cl-ient's funds at a
time when, based upon Respondent Dubin'S own accounting,
Respondent Dubin had not yet earned those funds, thereby
violating HRPC Rules f.15 (a) and 1. f5 (d) (20L4\ . We find

and

conclude he did not inform the client when he fully disbursed
the client's $45r000.00 from the firm's client trust account'

, and he did not
respond to clear inquirj-es from ODC regardi-ng the matter, in
violation of HRPC Rule 8 - 4 (g) (20L4) '
we find that Respondent Dubin's conduct, in oDC case
Nos. L6-O-L41 and L6-O-326, infticted actual-, serious, injury
thereby violating

HRPC

Rule 1.15 (d)

(201,4)

upon the cl-ients and upon the profession and, in

16-0-151, inflicted

ODC Case No'

injury on the public at large and the

integrity of the Profession.
we have thoroughly reviewed the record, and Respondent
Dubin's arguments, both at the Disciplinary Board and before
this court, regarding alleged violations of his right to due
process throughout the disciplinary process' and find them to be
without merit.
3

Wealsofind,inaggravation,thatRespondentDubin
has two prior disciplines, evinced a dishonest or sel-fish
mot.ive, demonstrated a pattern of misconduct, commiLted multiple
offenses, refused to acknowledge the wrongful nature of his
conduct, and has substantial experience in the practice of 1aw'
In mitigation, the record contains many positive comments from
clients, and Dubin has contributed positively to the development'
of the law.
Wenoterelevantdisciplinaryprecedentinthis
jurisdiction, including ODC v. Chatburn, Case No. 2477 7 (May 30,
v. Burns, Case No. 20882 (December ]-':,, 1999) '
take into consideration ABA Standatds for Imposing Lawyer
Sanctions, Standards 4.11-, 4'4L, and 7'1"'
2002) and

ODC

and

Finally,wehavereviewedtheargumentsfromboth
parties, and related materials, regarding the JuLy 23, 2020
motion from oDC counsel on thiS matLer, seeking to strike the
exhibits appended to Respondent Dubin,s reply brief.
Hence,

IT rs

HEREBY ORDERED

that the motion to strike is

denied.

ITISFURTHERORDEREDthatRespondentDubinis

disbarred, effective 30 days after the entry date of this order '
IT IS FURTHER ORDERED that, pursuant t.o Rule 2.1'6(d)
of the Rul-es of the supreme court of the state of Hawai'i (RscH) '
4

within 10 days after the effective date of his disbarment'
Respondent Dubin shall submit to this court proof of compliance
with the requirements of RSCH RuIe 2.L6 regarding disbarred
attorneYs.

that Respondent Dubin shall pay
$19,885.00 in restitution to the clients named in ODC Case No'
L6-O-1,4'7 and submit proof of said payment to this court, a1l
within 30 days after the entry date of this order. The
Disciplinary Board mdY, on behalf of the clients in ODC Case No'
L6-O-L41, seek further orders from this court in enforcement of
IT IS

FURTHER ORDERED

this directive, pursuant to RSCH RuIe 10, or by other means the
Board determines are appropriate to propose'
IT IS FURTHER ORDERED that Respondent Dubin shall bear
the costs of these disciplinary proceedings' upon the approval
of a timely submitted verified bill of costs by ODC, pursuant to
RSCH Rul-e

2.3 (c)

.

DATED: Honolulu,

Hawai'i, September
/s/ Mark

9t

2020.

E. Recktenwald

/s/ Paula A. Nakayama
/s/ sabrina s . McKenna

/s/ Michael- D . WiIson
/s/ Katherine G. Leonard

5

RECoRD:

Doc. No. 41 (JSmith 5)

tR41 (5) l

Personal
and
Professional
Resume

of
Gary

Victor
Dubin
Attorney ut Law
Dubin Luw Offices
Harbor Court
Suite 3100
55 Merchant Street
Honolalu, Huwaii 96813

: (8 0 8,) 5 3 7 -T-q0^
faisimile: (808) 523-7 7 3 3

telePh one
e- m

ail : gd u bi n@i

u b i n I aw' n

et

San Diego (619) 677-6200
san Francisco (415) 659-9855 Los Angetes (213) 947-6262

ATTORNEY
law in
Gary Dubin is admitted and licensed to practice
thestateandFederalCourtsinHawaiiandCalifomia,and

admittedatthePermanentCourtofArbitrationatthe
Hague, and has been a Member of the United States
Supreme Court Bar since 1973'

Mr. Dubin's practice began with the prestigious law
firm of Covington & Burling in Washington' D'C' as a
Hawaii in
summer associate; before moving his practice to
for
1982, Mr. Dubin traveled between coasts weekly

nearly a decade, serving clients

in

Califomia and the

Eastern United States.

Mr.Dubinhasdirectedmajorlitigationinvolving
real estate
shareholder derivative actions, lender liability

disputes, trade secret matters, trusts and estates
he has
administration, and in bankruptcy proceeding;
and
practiced before the U.S' Supreme Court, New York
New Jersey state and federal courts, and courts in
california, Tennessee and Hawaii; he has also managed
multi-million dollar land tracts for clients'

Mr.Dubinhasmanagedseveralmulti-milliondollar
Officer
corporations as well, serving as Chief Executive
and Board Chairman of public and private corporations
for many years; he has also served as Executor and as
trusts.
Trustee to several multi-million dollar estates and
with
On behalf of clients, Mr. Dubin has worked closely
Board' the
Congressmen and Senators, the Renegotiation
the Economic Development Administration' the

GAO,

of
Small Business Administration, the U'S' Department

agencies'
Justice, and other state and federal government

Mr.Dubinhasalsopracticedinthefieldsofforeclosure
practice'
defense, bankruptcy, entertainment law, appellate

and corporate reorganizations' His clients have included
judges'
leading business men and women, attorneys'
accountants,developers,andmediacelebritiesnationally.

2

LAW PROFESSOR
Gary Dubin joined the Stanford Law Faculty as a
Teaching Fellow in !963, teaching Legal Analysis, Legal
Research and Writing, and Contracts; while at the
University of Califomia, Berkeley, from 1964 to 1966,he
taught seminars on the Sociology of Law.

Mr. Dubin was appointed to the University of Denver
Law Faculty in 1966, where he taught Decision Process,
Criminal Law, Remedies, Jurisprudence, and Legal
History, and headed its Criminal Justice Research Center'
Mr. Dubin left Denvet in 1969 to accept a facultyJevel
research and teaching position at the Harvard Law School'
Since 1967,Mr. Dubin has lectured and taught seminars
at the RAND Corporation in Santa Monica, the Harvard

Law School, the Justice Department in Washington, D'C',
the University of Texas Law School, the UCLA Institute
of Government and Public Affairs, the University of
Southern california School of Public Administration, the
California Council on Criminal Justice, and the National

Advisory Commission on Criminal Justice Standards and
Goals in Washington, D.C., and private seminars on Law
and Social Change'

Mr. Dubin has authored numerous professional articles
and books and special reports, published by New York
University, Stanford University, the University of Denver,
UCLA, the RAND Corporation, and the United States
Department of Justice, and hosts a national radio talk
show on KHVH-AM and on iHeart Radio across the
Internet every Sunday called "The Foreclosure Hour'"

Mr. Dubin during his career as a law teacher developed
many new pioneering concepts for teaching rule making
and legal analysis as the authoritative management of
multi-disciplinary uncertaintY.

-t

RESEARCHER
Gary Dubin began his extensive early research career as
a Russell sage Foundation Fellow at the Law and Society
Center at Berkeley in 1964, where he studied social
science research methodology in relation to legal analysis
and participated in the research activities of the center

until 1966.
FromIg6S-Ig6g,hewastheDirectoroftheCriminal
Justice Program at the University of Denver; in 1969 he
joined the Harvard Law School criminal Justice center as
a Russell Sage Foundation Fellow, and in 1970 became a
Resident consultant at the RAND Corporation "think
tank" in Santa Monica, developing computerized decision
theory for several urban social problem management
projects.

Mr. Dubin was honored with appointment to
the National lnstitute of Law Enforcement and Criminal

In

1970,

Justice within the U.s. Dept. of Justice (LEAA) as its first
visiting Fellow with a government research grant to
continue his work in criminal justice research'

In lg7l, Mr. Dubin was appointed the Executive
Director

of the Southern califomia criminal Justice

Research Center, and developed a knowledge support
justice
system and research programs for local criminal
agencies. Mr. Dubin also served as the chief consultant

from:lg7I-:IgT2totheAlamedaRegionalCriminal
Justice Planning Board, supervising its research projects.

Fromtg72-lgT3,Mr.DubinwasPrincipalConsultant
to the courts Task Force of the President's National
Advisory commission on criminal Justice Standards and
Goals and developed the central administrative theme for
the President and his commission's Report on the courts.

4

BUSINESSMAN
Gary Dubin has been in corporate management since he
was 19 years old when he started his first corporation

manufacturing

and distributing educational tape

recordings nationwide, one of the first such nationwide
companies, while he was a student at U.S.C.

ln addition to managing his own corporations, including
a chemical company and a leading boat manufacturer, Mr'

Dubin has performed key

management

roles for

companies owned or controlled by clients at their request,

including manufacturing companies, a golf course, a
newspaper, and real estate investment companies, and
holds personally several United States chemical patents.

As Chief Executive Officer, Board Chairman, and a
Director of both public and privately held corporations,
Mr. Dubin has had extensive experience in virtually every
aspect of corporate management, including financial,
personnel, production, preparation of SEC documents and
filings, and was a founding member of the National
Association of Corporate Directors.
Mr. Dubin has also had extensive business training and
experience in the entertainment industry in virtually all
phases of motion picture management and financing and
was Chief Executive Officer of his own film production
company for several years while residing in California'
Mr. Dubin since 1972 has specialized in all aspects

of

mortgage lending, having successfully refinanced
hundreds of millions of dollars in client mortgages
throughout the United States, while successfully
protecting hundreds of millions of dollars of borrowers'
equity, and having prevailed in more than a dozen
appellate cases since 1997 which overhauled Hawaii
lending guidelines and practices, starting his own
mortgage company in2007, as its President and CEO.

5

EDUCATION
Gary Dubin graduated first in his class at Los Angeles
High School in 1956; he received his A.B. degree, summa
cum laude, from the University of Southern California in
L960, graduating first

in his class, majoring in Political

Science and Soviet Studies, Phi Beta Kappa, a student
senator and fraternity president and was awarded the

University's highest graduating honor

for

scholarship,

athletics, and community service, the Order of the Palm.
Mr. Dubin attended New York University Law School

as a National Root-Tilden Scholar, receiving a
degree, cum laude,

in

J.D.

1963 as Law Review Executive

Editor and Member, Order of Coif.
In 1963-1964, Mr. Dubin engaged

in

post-graduate

studies in law and social science research and language
analysis at Stanford University, and from 1964-1966 he
was a resident at the Law and Society Center at the

University of California, BerkeleY: &s a Russell Sage
Foundation Scholar doing post-doctoral work in legal
theory, decision making, and the sociology of law.

In

1969-1970,

Mr. Dubin was honored with

appointment to the Harvard Law School as a Russell Sage
Foundation Fellow at the Harvard Criminal Justice Center,

doing postgraduate work and lecturing at Harvard Law
School in jurisprudence and decision theory.
Mr. Dubin has served his country in the United States

Air Force, received an honorable discharge in 1962, and
has held top secret government security clearance in
conjunction with work on numerous national security
projects.

6

RECORD:

Doc. 4L, Exh.

10

Disciplinary Board

Office of Disciplinary Counsel

ll64

Bishop Street, Suite 60O
Honolulu, Hawai'i 96813
Telephone (808) 521-459 I

Chairpcrson

Bernice Littman
Mce Chairperson

Canoll S. Taylor

Chief Disciplinary Counscl

Carole R. Richelieu

Secretary

Rosemary T. Fazio

Assisunt Disciplinary Counsel

Charles H. Hite
MichaelT.I-ee
Brian C. Means

George D- Bussey, M.D., J.D.
Thomas E. Cook
Richard A. Coons, C.P.AFaith P Evans
Mark R. Hagadone, Ph.D.
Geraldine N. Hasegawa
Thomas K- Kaulukukui, Jr.

SraffAnomey

Geoffrey M. Kam
Investigators

Celeste M. Fujii

Elise B. Johnson

Howard K.K. Luke

Research Paralcgals

Millicent M.Y.H- Kim

Neva Keres
Darryn J. Manuel

Janluary 27,

Kenneth T. Ono
Calvin Pang

CONFTDEMTIAL

1-998

J. Michael Seabright
Manuel R. Sylvester, C.P.A.
Deborah K. Wright
Calvin E. Young

Gary Victor Dubin, Esq.
500 Ala Moana Boulevard
Seven WaEerfront Plaza, Suite 400

Honolulu, Hawai'i
Re:

96813

ODC 4058

Dear Mr- Dubin:

.

This is to inform you that the above-referenced ethics maEEer has
Our investigation has been
been investigated by our offi.ce.
revie$red by a member of the Disciplinary Board of the Hawai'i
Supreme Court ('rDisciplinary Board") .
Based upon t'he information and documents obtained by our
investig-tion, the Reviewing Member of the Disciplinary Board has
determined Chat a finding of professional misconduct on your part,
regarding your 1-995 misdemeanor conviction for Willfut Failure to
FiLe Incbmb Tax Returns in violaEion of 26 United Statres Code
section 7203, is not warranted due Eo the unique circumstances
pert,aining to your matter. Therefore, the Reviewing Member of the
Disciplinary Board has dismissed this compLaint.
However, given the nature of this charge, Ehe Reviewing Member of
t,he Disciplinary Board also suggests that your conduct should be
modified if you wish to avoid bhe imposition of future ethical
discipline,
You are hereby cautioned. that in the fuEure, under the provisions
of Hawai.i Rule of Professional Conduct 8.4 (b), it would be best if
you promptly filed your Federal and State of Hawai'i Income Tax
Returns, if you are required by law to file such returns.' You are
also cautioned Ehat any fuEure convictions for willful failure Eo
file income Eax reuurns may result in the imposition of ethical
discipline against you.

a
Victor Dubin,
Jan;uanl 27, 1998

Gar1a

Page

Esq.

2

letEer, please contact' me
If you have any quesEions regard.ing -thismatter
is appreciated'
atr S2L-4591. Your cooPeration in ttris
Very truly Yours,

T. I,EE
ASSISTNiTT DISCI PI,TNARY COI'NSEI,
tITIr:

jw

RECORD:

Doc. 4!.. Exhibit

11-

I

t
rccd on

witb thc State Bar duriag
invcstig3tion end procccdings, dcmonstrrted remorse, and at the tirne of thc mis-

c corfl-

conduct ruflkcd Enancial stress and her&hip

aintain

tlut uas bcyond his conuol

condi-

Valdcz coopentcd

is

oflaw.

I Rodto filc
lpublic
mt wa!
z 6ilcd
ro

6lc

a

nt

Dcccmber 19.

totlroy fohn ltllebe, Starc Bar
7478y, Alamcde (lilovcmbcr 19). Wiebc,
had his prcviour order ofprobation
for one ycar for frilurc to comply
ennr and conditiom to the previous
In April 1998 Wicbc rrras
dap and until hc rnadc rtstirution of

90

to

rnafter.
rLigncz

t anxinc. FIc

{is son
.

Rod-

:

in his
SUf-

rO

tcndid
:s and
esiding

siond rcsponsibilitics.

Thc probetion ordcr took effcct

rteting that hc was not rcquirid to 6lc thc
tax reruurs..Also, thc misconduct did not
involvc dicnB.
Thc rcproval toolc cfcct Dcccmber 31.

H€nrI R. Eskons ll,
Statc Bar #
34595, Honolulu, Hew'lii @cccrnbcr 15).
Dubin, 62, uns publidy rqtrovd for Gilurc
o flc fcdcnl incomc bx rcturnr.
InJanuary 1994 Dubin uas convicted of
violetioa of26 USC scction.72il3,6ilurc to

witb e firuncial scrviccs company
to

ofsecurity placed in rust
bcncft of invcstors who purcb:scd

2lr tnrstcc

for

cbrirorate promi:sory notcs to bc

but otrrcd no E rcr for thosc ycars bccrusc of
At about thc seme timc hc
6il6d i6 6lc tbc'ta:c returrr, he w:s bcing

of fhc company, assigning tfic company's
int4cst in S94O,800 worth of U.S. Trcanrry
bi$ Part of Eskcns'r fiduciary duty was to
dir{osc fully thc naturc and cxtent of thc

an

rccord

cmploycc of thc Intctoel Revcnuc Scn'icc

rris-

rufing that hc wls bot rcquircd to filc

conduct involved multiple ects of
ttut harncd thc idnrinistration
In mitigztion, hc acknowlcdgcd
rrcrs
6om sgbstancc rbusc contriburcd to
in complying with thc terrns and
to probrtion. Hc has cnrollcd in e
abusc rccovc4r prcgnrtL rc0ccting his
faith.cffortr to lcem stratcgies for
urg

In April 1994 Eslcns cntcrcd into.en

by thc company. Eskcns abo rcccivcd e
dcqd of assignmcng ccutcd by thc prcsideot

auditcd. Hc rcccivcd a lcttcr fron

of

(Octobcr 26). Eskcru, 40,
publicly reprovcd for Eilurc to compepcrform lcgd scwiccs.

6lc ftdcnl incomc trx rcturns, fom 1986
tluougb 1988. He has sinic flcd thc rcnrrs
busin'css losscs.

a

Statc Dar #

Sufidc

Pubtic Reproval
G6ry Vlctor Dnblnr

r Prior
rnicipal
n mitito thc

with tbe strc$ of neinnining e law practicc whilc mecting cthicrl and profcs-

Thc probation order took .cffcct

6ilurc
es, and

discipline.re ort

idcomC tax rctums for thc ycas covcrcd $
dic audii
' Itcrc.wcre no Ectors in aggnvrtion. tn
nitigS-tion, at about the timc of thc misconducg'Dubin was undct grcat strcar bccausc
hir sou bad bcco tcrmiadly ill end passed
-r* t9192- Thc misconduct wx duc, in
he rcccivcd from the IRS'

so

Mry

as

to evoid any misrcprcscnation
lettas to potcotial

1994 Esk rrr scnt

for drc cor4nny'r promisory not*
the lcttcr, Eskcrs did
acccss to thc sc.curity

At the timc he wrotc
havc pos.*ion ofor

'wes not in a.position to administcr thc
security for thc bencft ofthc iirvcstots.

cndcd

ryasa
.cz has

and

ics

sPorts,

d=

rcratcd
:l pro-

w

lcncrt
I char-

and

Elite and
GMS

as

cffect

]ou lo
loclud€s
needs.

(ioduding

Carpe

TAIG GOilINOL

WfiII

Busiaes mons gtdddlt aod

rnd opeizfiog

Fu vddl

codpaqfs tine and ett€ose3

i3865,
8, was

'urc to

fit

roved

withrtc

Bar

rroval
rc Bar
nduct,
:tc six
cation

Ga6erhetrhroadonpt
or delay of

the fuss

thao lfl),(){X} users ln over

-

nnE

to Provlde

youf

hlgberprolb.

CafpeDiem

tort

eRdeilly.

toa

apply .lt
slrituS

to the
I Statc

s

the

:1(enL

a and
ecord
roval.
.Jtiple

rnisicnts,

CIRCLE

7I ON

REAOER sERVICE CAI,O

CAL'FOANTA LAWY€R

79

ZOOO

'Ur.rg

Slol

'1

Courl ol lh€ Slote Bor of
Heodng Depodmenl X los Angnler
Coursel tor the Stote Bor

WCTORIA R. UOLLOY
JANET S. BT'NT
KEVrN B. TAYLOR, NO. 151715
SfATE BAR OF CALIFORNIA

Colifor
] Son Fronclsco
l

(orCo,lrl!

Cose mtrnbe(s)

94-C-1 751s-CEV

ENFORCEI{ENT

1149 S. ErLL ST.
r,os ANGELES, CA 90015

use)

F0rElD
IlEct5

Counsel for ResPondenl

GARY VICTOR DUBIN
IN PRO PER
7 WATERFRONT PI,AZA

5oo ArA MoalIA BLvD" *4oo

HONOLULU,

Hr

968r3

Submltted
ln lhe Mqtterof

GARY VTCTOR DUBIN

Bsl

34595

A Member of the Stote Eorof Cofifornlo

to f

osQrredJudge

f.

setllement judge

SNPULANON RE FACTS, CONCLUSIONS OF TAWAND DISPO$NON
AND ORDER APPROVING

nEPPOVAT

T

f

PRTVATE

f,PUBI.IC

PREVIOUS $IPULANON REJECTED

(Respondent)

A Porlies' Acknowledgmenls:
6. lq&l
) Respondent 's o mernber of lhe Stote 8or of Colifornio, odmitted, llanva.,^r
ldate;'
(2)

to be bound by the foctuolstipu&rlions contoined herein even if corclusions of low or
or chonged by lhe Supreme Courl.
rejected
ore
d'sposition

(3)

Ail investlgotlons or proceedings lisled by cose number ln the coption of thls stipulotion ore entirety
resotved by this stipulotion. ond ore deemed cor$olidoted. Disrnissed chorge(s)/count(s) ore listed Lrder
po€tes.
'Dismisols,; The siipulolion ond order consls?

The porties ogree

ofj-

(4)

A stotement of octs or omissions ocknowledged by Respondent os cous€ or couses for discipline is

(s)

included under'Focts.'
Conclusions of low, drown from onC specifcolly refening to the focts ore olso irrcluded under '@nchrdors
of Low.'

(6)

No more thon 30 doys prior to the liling of this sfipulollcn Respondent hos been odvlsed in wrifing of ony
pending lnvesligotion/proceeding rrol resolved by lhis stlpulotlon excepl for criminol investigolions.

a

Poyment of Dlsclp[nory Costs-Respondeni ocknowledges the provisiors of Bus. & Prof, Code S56086.10 &
6140.7. (Check one oPtkrn onlY):

E
f
al

yeo follodrng etfecllue Oote ot.cebf{rid -(F11Srepro,vd)
(ptivote
reprovol)
cose lnellglble for costs
costs to be pdd h equol ornounts prior to Februory I for the followlng membershpy.qgr$
costs odcted to memberstrrp fee for ccierrdor

or oltrer €eod ccn sre pet rule 284, Rules of Procedure)
OordshiP. sPeclcl
port
Vtroher of Cocls'
forlh
os
set
under'Porlid
ln
E cosh woived
\- B cosls enlirelY woived
Dubin
oDc t o-""Y::"r
Nors Alt hforoarioo rr+rirtd by rhb foror ud uy rdrlifrond hlorantloo tb
El
tDctcrtcop3.eotof tbbrtipuhtionundcrspecifchcediogr,Lc.'T".il Petitioner's Exhibit
Forldentification(Sttr&llonto.rtqp?ov€dbySsCE:rocuhnCorrwlflee rcmn7,
ln Evidence

bGttlorlib
Rgp(ovol

ln the Motter

of

G*V Viclor

Cose Number(s):

0rSi,t

9q-c- 11sr5-LEv

A Memberof the Stote Bot
NOTO CONIENDERE PLEA TO SIIPULAIION AS

IO

FACIS, CONCLUSIONS OT LAW AND DISPOSMON

Btr. & Prof. Code 56085.5 Disciptinory Chorges; Pleos to Allegotions
Ihere ore three kincls of pleos lo lhe ollegotbns of o notice of cliscpfrnry clnrges ot ofhet deoOing
wt{ch inifioles o discplimry proceedirlg ogpinsto mernber

(o) Admldon
(b)

of culPobilitY.

Denlol of culPobitttY

.(c)

Nolo conlendele. tublecl lo lhe opprovot ol lhe. Slole Bqr Coutl. lhe courl sholl oscedoln
whelhel lhe momber complelely underslondr lhol o pleo ol nolo contendere sholl be conrldeled
lh€ soms ol on odmlsslon of culpoblllty ond lhol, upon o pleo ol nolo conlendere, lhe coutl sholl
find lhe member culpoble. lhe l€gol ellecl ol suctt o pleo shd be lhe sqne os lhol ol on odmbslon ol
cllpobllily lor oll purposer, excepl lhol lhe pleo ond ony odmlsslons requlred by lhe coutl dudng
ony lnqulry ll motce os lo the volunlodne3s ol. ot lhe locluol borls lor. lhe pleos, moy lrcl be used
ogolnst lhe member os on odmlsslon ln ony clvll suil bored upon ot growlng oul ol lhe ocl upon
wntcn the dlsclpllnory proceedlng ls bosed. (Actded by Stots. 1996. ch. I lO4.) (emphosis supplied)

RUl.l 133, tdles of Rocedure of the Slote Bor of Ccdifornio SIIPULAilONS AS lO
lAtrV AND DISPOSIIION

FACTS, CONCIUSIONS OF

A proposed sflpulotion os lo.focts, conchsions of krw. ond d'sposilion sholl set lorth eoch of
lofiowing: ...

(o)

ll'p

(5) o stolement thot tespondent eiltpr

O odnfts the locls set fodh h the
of tlre speclfed ststdes ond/or

stipulolion ore true ord lhol he ot sfp b culpottle of viokrliors

Rrdes

ol Profes*lrd Condcl ot

(ii) pleods nolo conlendere lo lhose locls ond vlolollons. ll lhe respondenl Ploods nolo
conlendere,lhe sllpulollon sholllnclude eoch ol lhe lollowlng
(o) sn ocknowledgmenl thol lhe pspondenl complelely underlonds thsl lhe pleo ol nolo
conlendere shcdl be conddered lhe tone os on odmbslon ol lhe stipuloted locts ond ol hlr
or her cutsoulty ol the rlohrlec ond/or Rtder ol Prolesslon<il Conducl specllled In lhe

dlprdsfio$ ond

(b) ll requested by lhe Coud, o slolemenl by the deputy lrlol counsel thol lhe loctuol
sltputottons ore supporled by evldcnce oblolned ln lhe Slote Bor lnvesllgollon of lhe
mstlet. (emphosE suPPlled)
l, the Respondent ln thls motteq hove reod the opplicobte provislgrs of Bus. & Prof. Code
ndo
56085.5 ond rute 133(oX5) of the Rules ot Procedure of the Stole Bor of Colifornlo..l.pleod pleo
my
thot
understond
lcompletely
iontendere to lhe cndrb6s set forth in thls stipulolion ond
sholl be consldered theiome os on odmlssion of culpobllity except os sto?ed in Business ond
Professions CodE seclion 6085.5(c).

lu Xi3"i3fi i;llR[*3nll"**i3T',,i: :5fi$ll$"3"#"ulo#']S["39H?3i*?,
rLlr I qq
Ere--r-r
- opproved by
101f2/|7)
(Nolo Contendere Pteo form

SBC Executhre ComnJttee

IA

o3

-b

-

B.
-'

lor Atfomey Soru.-nr lol Proleedonol
ote recpfred.
clrcunulolrel
focls apporling oggrctroting

Eoororb6trrg orcumslqrrcel (lol

,rl-,tiJi.Z-Oll.

)

o--ifion, ree Slondodr

Misconducl,

JPrior record ol tfiscipline (see slordord l'2(0)

(o) I

Stote Bor Court cose s of prior cose

(b) I

dole prior discFline effective

(c) -J

Rules

(d) fl

degree of Pdor cftcFrte

r12,

of Rofesionol condrrct/ stote Bor Acl violotions:

prior discipline. use spoce provided below or
lf Respondent hos two or more incidents ol
under'Prior DisciPline'.

(e)

I

I

or followed by bod foith' dishonesty'
Dlshonesty: Respondenfs misconduct wos surrounded by
8or Act or Rules of Profesiord Cmdrct
conceolment, oveneoching or other violotions of the Stote
involved ond Respondent refused or wos unoble to
Trusl Viololion: Trust funds or property were
misconduct for improper conduct
occount lo the client or person who wos the obJect of the
toword soid funds or Property'

(3) I

(4) I

or the odministrolion of i'rlice
Hom: Respondenfs mlsconduct hormed significontty o clienl. ttre rrublic

(s) I

toword rectificotion of or otonement for lhe
lndillerence: Repondent demonstrored tnditfererce
consequences of his ol hel mlsconduct'

(6) I

condor ond cooperotion to viclims of his/her
Lock ol cooperolion: _Respondent disptoyed o lock of
hvesfuofon or proceedings'
m6conOrrct Li to tnt Stote 8or dudng disciplinory

f Mulliple/pofiern ol Misconduct Respondenfs cunenl mlsconduct
o
\-,wrongdoingordemonslrotesopotternofmisconduct.
(8)

X

evidences multiple octs of

*o oggrovoling drcumslorrces ore lnvolved'

Addllonol oggnovoling clrcumsloncec:

(Sifpursrion

form'cpgqp<t by S8C €'€€uit'9 Corrrrjftee rcf22n7l

Fsp,ot rct

q. Miligoiing Clrcumstqncei

(see

I
-$..,.rlrd 1.2(e)!. -Focb *ppofing mifiggh.., clrcum$onc6

ore recnrlred'

proctice

couded
of
No prlor Discipline: Respondent hos no prix record of cfsclfline overJnony
X withoresentmisconducturhichisnotdeemedseriorrrs.
Rasio^lt^4 hal no rcturol olgr;or
a,iliiiii?=il:;l;-{;''E-l'i;;4;J- -1.-p;t7iic lav ,i ct tt lpen;e sn f,anvany 6, le6Y.
:J No llormj Respondenl dtd not horm ltre client or person who wos lhe obiect of the misconduct'
disptoyed spontoneous condor ond cooperolion to the vicltnsof
] Condor/Cooperqlion:ondRepondent
stole
Bor dudng disciplirnry investigofron ond proceedings.
tothe
yeors

|'l)
Q)
(3)

his/her misconduct

<4)

]

rernorse and
Remorse: Respondent promptty took objective steps sponioneotrslydemorstroting
of
ony
corsequences
for
to
otone
linrely
oi me wrorpdoing, which steps were designed
hb/her mlscorxjuct.

15;

]

ResliMion: ResPocbnt Poid
to
Proceedings.

;;"diti""

S

without the threot or force of disciplinory. cMl or criminol

-on

(6) ]

Deby: These cfrcipfinory proceedings were excesively dekryed.
Respondent ond the deloy prejudced hirn/her'

(7) ]
(s) ]

Good Folth: Respordenl octed in good foith'

deloy b not othibtttoble lo

profesionolmisconduct
Emotionsl/physicol Difftcufiiee: At the lime of the stipuloted oct or octs of
which exper? testimony
physicoldisobllifies
or
Respondent iuffered extreme emotionoldifficulties
or disobilities were not
diflicullies
Ihe
miscoMucl.
for
the
wos direcfly resporslble
would
obuse. ond
subslonce
or
illegoldrug
os
such
the
member,
by
"ii"Onrn
of ony illegolconducl
me proouci
or
disobilities'
difficulties
from
such
Respondent no longeriuffen

]

from severe finonciol
severe Finonciot shess: Al the time of the misconduct, Respondent suffered
were beyond his/het
whrlch
or
foreseeoble
slres which resulted fiom circumsionces not reosonobly
control ond which were directly resporsible for the misconduCt'

]

extreme difficullles ln hls/her
Fomily probtems: At the time of lhe misconduct, Respondent sutfered
personot life which wer6 other lhon emofionolor physicolin nofute.

l) ]

wide ronge of refererces h the
Good choroclei Responden|s good chorocter ls ottested to by o
misconci.rcl.
his/her
of
full
extent
lhe
of
1.gol md generol communities wlp ore owcre

-(g
(10)
(l

The

(12)

3

pofessionolnfsconduct occurred
Rehobilitolion: corsideroble fime hos posed since the octs of
followed by convincrrg proot of subsequent rehobflitoiion.

(13)

]

No miligoting circumslonces ore lnvofued'

r*retl ctvt 4o
nru,*,s r*irr tatrvul hc wtr vndcr
ealrt fsn pr'rtcy' c',tJ,v O'\ NottCtuq't'a
Rclpur,J
ill.
]al',.inc-tly
bei^,
lsr Jon
tl, I (il.
t'^clrnc 4uy rc{v.at wct eJvcr''-' 1tc"l 4o o lelle.
{.tc
/o
&-:lrre
Resgoadu-1,r
O
*
l-c rtc3i./€cl lrovr- -{.t.c E R.t. Ly'v,lrrr5 hrrrr -1*-+ l-c wct avt tzav'n'c/
{rtc -fLc n'fvr"t.
O Rtlpunlq;-lrr nJlfvalvc;4- /id arrl rrrvolr,rc cticn.r13.

^t6til'Jl'tf,:Tff'iTi",ln.

(s[lPtJolldllqm Wproraed by

SSC

Executiw Conrrlileo lff72'n7'

Fopotd

D. DisciPline:

rl)-]privotereprovol(checkop$icobleconditions,ltony.below)
V

. '- r:^-r^-. -^ /-lia,.laliaa
ruiru la fillf
disclosure (stipulotion pri<x to flkrg ol chotges onv)
no pubnc
pubtic disclosure (Nofae of Disclplinory Chorges l1ed)

(o) J

i6i I

qt

(2) y

pubtic,epro\a1 (ctreckopplicoble conditiors. llony, below)

E. Condllions Atloched lo Reprovol:

(r)
(2)

(3)

shoil comply wilh

F

lhe conditions ottoched to the reprovol

fior

o pedod of

yf During the condiiion p€riod ottoched lo lhe reprovol. Respondent shollcomply with the
l[riir,""t "f tne Sfoti Bor Act ond Rules of ProfesionolConduct'
report. ond in no event Fr nrore thon l0 dola, to lhe Membership
sr' Respondent slrollpromptty
Triol coursel. Los
the stote Bor ond to the Probofpn unit, office of the chief

(4)

il.J"iJ,

office of
current office or other oddres for Stote 8q
Angeles. orrcnJges oirntorrnolion lncluding
Busines ond Profesions Code'
the
o!
purposes o, pr.tc-ttO"d by section 6002.1

$

to the Probolion Unit of the ofllce of the Chbf
Respondent $o1submit written quorterty reports
ond october l0 of the pedod of probotion,
Triol counset on eoch Jonuory 10, Aprit 10, July-lo
mis conoifion. under penolty of perjury eoch
except os set rorn lr 111e sec6no pdrogropit 6r
wilh oll provis'rors of the stote 8s Act ond the
report snon stoG tnot Respondeni notLomplied
preceding colendq qtlorler or period descdbed in the
Rutes of profesionol Conduct ouring the
second porogroph of thb condilion'

les thon 3o doys. lhenllre fust report sholl be submitted on ihe
period. Ihe finolreport is due no eorlier thon 20
next quorte, oor" ono cover tne extJnOeo
pr6ootion
ond no loter thon the losl doy of probotion'
doys before th;k*doy of tne perioo or

tf the first report woutd cover

(5)

$

(6)

tr

sholl onswer fully, promptty ond
subject to oserrion of oppticobre privlleges, Respondent
probotion unit of the office of the chief Triolcoursel ond ony
truthtu1y onv inqrirLs or ine
to Respondent
probotion,oniioioisgnrd under these conditions which ore directed
or hos compfied with the
personolly qI l.t *nru ietoting to urretner Respondent b comptying
Londitions ottoched to the regold'
Respondent stroll promptty revlew the tenrs
Respondenl sholl be ossigned o probofirn monitor.
probotbn monitor lo estodistr o morYler ond schedub
ond conditirns of tris/lrer probotbn with the
Respord€rrt shcr fr.nnhh srch reports os moy be
of complcrce. Durilg rte perioct

"iprioorin
proooricir mqrltorh ocldlion towcrtedyreports
reqJestedbyttyeproboliort rnorltort6ne
proo"-rion-rinit
of the office or the chlef Triolcol'Eel' Respmdent
required to oe zuffieo to the
o" ,'no.no' fo enoble him/her to cfischorge rs/herd.'ll€6'
stroll cooperote fr.rlty with the
reprovct hereirr nesponcbnt $roll ottend the stote
withtn one yeor of the effeclive dote of the
qrch sesdon'
school. ond shol poss ttre test gfiven of t|}e end of

pto

a

f

Bor Ethics

tr
.8)

F
'

PrrofecdoncrRespordbrtyF-rcrnhollon

neponoent$dp,ovldenrootojngsoge3t|l:tfiJt"t"t
of Bor Exomlnen' to lhe Ptobollln Urft of
(.MpRE.l, oCr*rhereO Uy ne f.foffonof Confererce
the rcprovol'

one yeor of the effeclive dote of
the oflice or tne cnrer tdot coursel within
No Mm€ od€r€d.
fdm Qlov€d by SSC Encr'nt€ Ccrrdnee rcfZZF"

tr

(Sllprrcnion

NoEtfilcsschoolordered' Sea a*lachrncn*

F€fold

(9

-J

The following condiliorb ofe otioched herelo ond incorporsteu:

f
I
(10)

(Sfrrotio

J

Substonce Abuse

Conditiors -l

MedicolConditlons I

Lciw

Office Monogement Conditions

FinonciolCondifions

Other conditions negolioted by the porties:

lorm opproved by

S8C Execlrtive

CorrrrJtlx lOl2l9D

negov*

rmleEllEl[t

To

aEIPI[rI\lIOr nE 3AClr8, COtlCLUSrONs o)F Ltlt lttD

DISITOSITIOX

OT': GARY VICTOR DUBIII
94-c-17515-csv
CASE NItl{BER(s}:
IN

T}TE MATTER

Fasts
On January L4, 19911 Respondent was convicted, following a
bench trial, oi three nisderoelnor counts of violating 26 U.S.C.
tbe
section 7ZOi, wilfulty failing to file federal tax returns forgrross
had
Respondent
years 1986 tlirough 19C8. The Court found tbat
income in eaclr of tbose years in excess of $SOorOoO.
Respondent has since filed the required returns which showed
that he 6ued no taxes for the subject tax yearg beeause he suffered
business losses whj.ch exceeded hl's grross incone. ilhe fnternal
Revenue Serlice has not assessed Respondent for the subJect years.
Respondent was being audited by tbe lnternal Revenue Service
Durlng
about ttri tirne he failed to file ttr! subject tax returns.enployee
tfr"t audit Respondent received a letter from an f.R.S'
ie"fondentrs idea that he was not required to file the
"""iir-in!
subj eet retums.

Conclusions of

Law

The facts and circumstances surroundlng Respondentts violation of
26 U.S.C, section 7203, did not lnvolfe noial turpitude, but.did
involve other conduct warranting di-scipline. The facts described
above constitute a vi.olation of ialiforiia Business and Professions
Code, section 6068(a).
PETDITC PNOCBEDTtrCE.

The disclosure date referred
Novenber 22, 1999.
PROCEDT'RID BICTGNOTNTD

T!'

to, on page oner paragraPh

A.

(6),

tras

COIrqICTTOI| PROCEEDII|G.

proceedingi pursuant to sections 6101 and 6102 of the
1. Tbis is aprblessioniiode
and rrrle 951 of the California Ru1es
eusineJs and
of Court.

6
Page

t

AttlchrEnt Pogc I

was convicted on three
2. On ,fanuary L4, 199i1, respondent
6f vtofiting 26 V.S.c. section 7203, wilfullY
misdemeanor
"orirts
federal tax returns'
failing to file
Bar
1-996, the Review Department of, the State the
3. On AugUst 6,'augmented
to
natter
referring- tlrf.t
order
Coutt issued an -neiring
and iecisLon recommending
a
for
Department
Hearing
the HearinE Departnent
.if="iiif"e iJ-i"-Irp"""a in ttre eveit that
the offense for
surrounding
finds that tn"E.tJ
-t.t ina circumstances moral turpltude
or other
convictea involved
which Respondent
misconducl warranting discipll'ne.
STlrE Bln E!trIc8 SCEOO& EXCLI'SIOX

State
California and is unable to attend
School'
to State Bar Bttrics
Bar Ettrics Scnoof. As an afternative
of the date t]re discipline
year
wit[in-""e
the partfes agi!.-tttii
four
erflctlve-respondent will conplete
in this uatter becomes
-ilpiovea
on
courses
continuing -l_egra1 edusation unit with
hours of c.E.;.
Probation
pio-*tia"ttre
legar ethlcs' Respondent "ttiii
condition on or before the date
;;Ti; ""rpiTu"-." "itrt i6's^
;;;
iris final quarte-ly report is due'
cloltpr,riltcE fI:rE CONDTTIOXS OF PROBATTOIyPInoLE rx mtDERr.'YItfG

Respondent resides outside

CRII{INIL lllmER.

of any probation or
shall comply *tith all conditions
and shall so
i" tie- unaeifying crininal matter
ii"i5i"--iip.="a
with any quarterly
declare under penalty of peii"w i" conjunction Unit.
;6;tt-r"q,rir.i io OL flled wftn the Probation
Respondent

Page

#

AttochrErit Plgc

a

-z*\

F@gfri6gfoletE\-

prini norne

Repondent's counsel's stgnorute

IA

q

li

l(c

v,^ A ' 7'y /a.

FTEre

ORDER

Finding thot the stipulotion prolects the public ond thot the interests of Respondent
will be-served by ony conditions ottoched to the reprovol, lT lS ORDERED thot the
requested dismissol of counts/chorges, if ony, is GRANTED without preJudice. ond:

{

m.

sfipuloted focls ond disposition ore APPROVED AND IHE REPROVAL IMPOSED.

_J The stiputoted focts ond disposition ore APPROVED
below, ond the

AS MODIFIED os set forth

REPROVAL IMPOSED'

Ihe porties ore bound by the stipulotion os opproved unles: I ) o molion to withdrsw
or modify the stipulotion, filed within l5 doys otter service of this order. is gronted; or 2)
lhis couri modifies or further modifies the opproved stipulotion. (See rule 135(b), Rules
of procedure.) Olherwise lhe stipulolion shollbe effeclive l5 doys otler service of lhis
order.
o
Foilure lo comply with ony condfions.olloched to lhls rcgovol nrqf consliltrle couse lor
sepolote proceeding forwitlftrlbreoch ol rule l-l10, R.rles of ftofessionol Conctucl.

s-

(SiFdofion form laftect l0/8n7)

?

Judge of the Slote tsor coud

I

rwrna {

Repro/dggnoluo PogB

ll

DEcInRnAIor

Ol

SER\IIICE

3f lllfrr

clSA ltltilaEns 9a-C-17515

years, rrhose
the age o-f eighteen (18) State
l. the undersigmed, ove_r
Bar of
the
is
business aaAreis a'na place of enplolment
e0015,
california
r Street,-Lo; Angelgs,
A;iii;;ta, rrls south ftif
I aE
that
action;
rrithin
the
aeciat" that f aE not a party td
for
practice
california's
of
the-sta€e Bar
;;;eii; iiriri"iritn
the
wlth
nailing
for
-P;;t;i-i"#i"t;of correspondence
collectiotr und-processing
that in ttre ordinary course of the
united states
corresPondence-collected and
piactice'
gtate Bar of c"iii;;ia's
sould be deposlted uith
Caffiornia
the State Baioi
processed by
-stalas
atl arare
Postal Senrice tbat sam? dayi trt"! Iinvalld
f,tre united
if
sernrice is- plesgned
that on notlon of party ""*"arone
than
is more
aatL or postage
-rnailing
P-eter date
;;;i"i- "it ".u.tion
That in
affidavit...
deposit'tor
day after a.t"--"i
Bar of California for
sitrr tfre pra-ctGe of the stat-e
mail", I deposited-or -placed for
""'","r6."cl
collection *a- p"""6Jsfng of city
and county.of r'os Angeles, on
coriectio1 .rrJriiiittq in-the
thedateshorrnbe}otr,atnrecopyoftheyithin

:il
:i!

:ll
,:ll

"ll

STIPI'IATTON

i:lt

and rnailing at los
in a sealed envelope placed for collection
to:
eng"f"=r oh the datl shown belor, addressed

l:ll

CIBI
?

Ill

regularly naintained
in an inter-offlce Dail facll.ity
to:
Bar of California addressed

VICTOR DT'BIN
PI.ATII
'TTEBSROTT
lLf, tlOllltr SI.IV'D 8!E {OO
5OO
EONOLIIIJII AI 96813

by the State

tyt

rll
22

li

under the lavs of ttre State of
of perjury
I declare under penalty
-is- true
-f"1t"goittj
-ttt"
and correct. Executed at
Cal ifornia tnai
-on the date shown
below.

--

::ll
*"

ll

e6ll
27

lt

*ll
ii
It

-

atg"les, California,

DATED: December

8.

1999

SIGNED;
BO}TNIE

Declarant

AN

CERTIEICLTE OF SERVICE

[Ru1e

62(b], Rules Proc.;

Code

Civ' Proo', $ 1013a(lll

Bar courE. I am over t'he
I am a case Administrator of t.hetosEaEe
the within.proceeding.
eighteen and noE a party
in the City and CounEy 9f
pralcice,
"i
pursuant
"g"
t.o standard court
a true coPy of the
I
deposiLed
1999,
15.'
Los Angeles, on Deco-r.er
following document (s)
-

STIPII,ATION RE FACTS, CONCLI,SIONS OF IAW A]ID
DIsPosITIoNAI.IDoRDBRAPPRoVINGPIIBIJICREPRoVALtrIIJED
DECBIBER

15'

1999

in a sealed envelope for colleccion and mailing on thaL date as
follows:
by first-class mail, with postage Ehereon fu1ly at
lxl
senrice
plepaid, Ehrough.t'he Unit'ed stat'es Postal
follows:
as
addressed
io='-Arrgif.", eilifornia.
GARr

V. DItBIlf' BsQ.

? WATERFROMT PraZi[, srE {oo
500 ALA I'{OANA

EONOLITITU

BLVD

EAWAII

96813

bycert,ifiedmail,,withareEurnreceiptrequested'
iirrougtr the Unit,ed iraces Postal Senrice aE Los Ange1es,
Calif5rnia, addressed as follows:

lxl

by int.eroffice mail through a faciliry regularly
*.irrt"irred by the sEace Bar of california addressed as
follows:
KEXTfN TAYLOR,

ESQ', OFPICE OF TRI.AIJS

IherebycerEifythatcheforegoingisLrueandcorrect. 1999
Executed in tos'enieles, california, o[ December 15,

.L
Case AdminisrraEor

state Bar CourE

titll'
The document to rvhich this ccrtificatc is aflixcd is I
rccord
of
and
fitc
on
original
of
thc
r*" anO corrcct copy
in the State Bar Clortrt

r{l I-EST f}ecember 7 20r6
Snte llar Cour! st3te llar of Calilbrni:r
Los Angcles

By

cl

\-

RECORD:

Doc. 4t, Exhibit 10, and Pet'

El-

)

DUB
LAW
OFFIGES
Voice Mait (8Og)

ilg-l1ilg

Seven r laterfront Plaza
Suite 400
500 Ala Moana Boulevard
Honolulu, Hawaii 96813
Office (S0S) 537-2300 (808) Dubin Law
Facsimile (808) 523'7733

Toll Free (888) Dubin Law E Mail: dubinlauv@;psn.com Cellular(80&) 2274800

NovemberS, 1999
Hand Delivered
Carole R. Richelieu, Esq.
Chief Disciplinary Counsel
Office of Disciplinary Counsel
1132 Bishop Street, Suite 300
Honolulu, Hawaii96813
RE: Your November 2,1999, Letter

Dear Ms. Richelieu:

As you know, some years ago a Hunicane by the name of Msiting Judge Manuel Real
went thiough myiife, andl am still putting the pieces back together again.

your agency thus far has been the onty body to seriously study my misdemeanor

tiax

and
case, and t6untis to the time that your Mr. Lee personally invested in reviewing my case,
year'
I
last
early
professional
wrongdoing
the 6isciplinary Board having cle-ared me of any
sanity.
have been able to restart mylaw practice and in the process to maintain my

I am however also as you know a Member of the Califomia State Bar, which of course
known as the State Bar Court - which is much more formal
also has a disciplinary
"g"ncy
pro."dures tnin ifiose we have here in Hawaii, principally due to its having now I
in
understand over 150,000 practicing aftomeys in Califomia to oversee.

it

-

ln Califomia, failure-to-file convictions have in recent years automatically resulted in twoyear suspensions with all but sixty days stayed, based solely upon the fact of a.misdemeanor
the
failure-to-file tax conviction without more, the amount of the stay dependent upon
piui"n." of mitigating circumstances - which is an approach quite dffierent and less flexible
and less inquiring than has been the practice in Hawaii'
However, as with Mr. Lee, the investigators there, although styled as,State Bar Court
prosecutors, h"u" been symputn"tic with my unique cjrcumstances and, defying their Stiate's
sanction possible, after I
irecedent, irave been attempting to carve out the least severe
judge who,
a
wrote you, bending their piocedures by bringing qrg lefore seftlement
approve a
remarking-understa-ndingly ihat I seem to have been falsely accused, agreed to
stipulated-setlement Oreal<ing with othenrvise controlling precedent in this one instance.

'"-l
DUBIN LAW OFFICES
Garole R. Richelieu, Esq., Ghief D

Gounsel, November 2, 1999

However, despite what in the context of the Califomia Bar Court represents a
remarkable gesture towards me in the context of its adversarial procedures, which is also
based on my othenruise completelY clean ethical record with them for 36 years (not one
ethics complaint against me), the Califomia Bar officials are unable, based on their case
precedent from the Califomia SuPreme Court and pressure from reviewing panels, to let me
go without some discipline and therefore have recently offered me a "public reproval" or
otherwise I and theywill have to go through with myscheduled trialin late Januaryof 2000
Naturally, I am reluctant to accept any discipline for something that I did not do; however,
from a prra"iicat point-of-view, not only will it be costly for me to defend the case in Califomia
next year, but I do not expect to eveiagain practice law in that State, although I certainly do
not intend to resign under any ethics' cloud.

l enter a nolo
the same
public
upon
based
reprornal
contendere reiponse and they will then stipulate to a
facts that were before you, specifically basing their public reproval solely_and. exclusively
upon the public record that i was convicted of misdemeanor failure-to'file charges and
nothing more.
That being the case, the Califomia authorities have proposed that

Further, they have agreed to state in the public notice that I had a number of mitigating
factors which were considered, such as my having been advised by the IRS that I had no
filing requirement for the years in question, and the contemporaneous illness of my son.
Thiy wili atso note in the ilublic notice, printed in Califomia, that I continue to maintain my
innocence.
Under those circumstances - specifically that the "public reproval' discipline proposed in
Califomia would be based upon fhe same identicatfacfs previously before you I need to
know if that would tigger any reciprocal discipline in Hawaii, for under no circumstances do I
intend to affect my u--nility to-praciice here. overcoming the inaccurate public perception in
Hawaii as to whathappened to me has already been burdensome and unfair enough.

-

join
Additionally, as previously mentioned, I intend shortly to reCugs! the U..S. Attomey to
of
the
set
upon
me in petitioning the United States District Court for a new trial based
circumstiances s6t forth in my earlier letter to Mr. Lee, or I will do so mFelf, which I believe is
cunenly the proper forum for such information, and not your agency, and I will seek to delay
the impbs1ioi1 oi any'public reprornal" discipline in Califomia until that new request is dealt
with by the federal courts.
Unfortunately, however, the Califomia disciplinary authorities claim that they do not have
the ilme to look behind the public fact of a misdemeanor conviction given the number of
ethics 63ses they process each year and have not devoted the time to review my case as
your Mr. Lee did, and do notwant to.

Since I am being pressured to settle or to prepare for trial in Califomia, I am hoping to
hear from you as soon as Possible.

2

DUBIN I.AW OFFICES
Garole R. Richelieu,

Counsel, November 2, 1999

Ghief

Verytrulyyours,

/s/ Gary Vlcior Dub!:r
GaryVictor Dubin

GVD/o

3

Comparison Of Differences In psfslminations Of Gross fncome, Taxable Income, And Tax
Liability of Petitioner For The Tax Years 1986, 1987rAnd 1988

Determination
Made By
1. United States
Attomey's OfEce in
Honolulu onAugust
13,1993, charging
Dubinwiththree
federal failure-to-file

1986

1987

1988

Tax Year

Tax Year

Tax Year

Gross

Gross

Gross

Income:
$530,511.00

Income:
$634,100.00

Income:
$479"289.00

misdemeanors
2. JudgeReal

in

Honolulu onJanuary
20,1995, sentelrcing
Dubin to 30 months in
prison and a $125,000
fine as the
Gove,mmeirt's "tax

Gross

Gross

Gross

Income:

Income:

Income:
$330,297.68
Ta:rable
Income:
$33,976.54

8533;72s39

$633'59438

Torable Income:

Taxable Income:

$199p80.29
Tax

s284J87.7s
Tax

Liability: 525,000.00

Liability: $62,303.00

Gross

Gross

Gross

Income:
$662,680.78
Ta>rable Income:
$547,870.00

Income:
$627,091.90
Taxable Income:

Income:

3. The Int€rnal
Revenue Se,trrice's

Exarniner in Honolulu

onNovembu2,200l,
assessing Dubin for

* Penalties:
$ 199,565.25

$160,347.00

* Penalties:
s 199,565.25.

(* Interest)

(+ Interest)
Ta:rable Income:

$-243,645.00

Taxable Income:
(minuO
$-60,801.00

Tax

Tax

$-3p48.00
Tax

Liabilitv: $0.00

Liability: $0.00

Liability: $0.00

Liability: $260,921.00

1+

4.Intemal Rwe'lrue
Service's Seattle

Distict Office on
Jnne 30, 2003,after

reviewingDubin's tax
case

$620Js4.46
Taxable Income:
$553,401.00

$ss6p99.oo
Tax
Liability: $208109.00
* Penalties:

Tax

federal income tax
deficie,ncies upon his
retum from federal
prison

Tax

Liabilitv: $44,949.00

losstt

Interest)

Tomble Income:

(minu0

Ta,x

Liabilitv: $121,017 .7 5

(minus)

1
Seven'rlaterfront Plaza

DUB
LAW
OFFICES
Voice Mail (808) 543-1159 Toll Frce (888) Dubin

Suite 400
500 Ala Moana Boulevard
Honolulu, Hawaii 96813
Office (808) 537-2300 (808) Dubin Law
Facsimile (808) 523-7733
Law

E Mail: dubinlavv@lnsn.com Cellular (808) 2274800

DecemberT, 1999
Carole R. Richelieu, Esq.
Chief Disciplinary Counsel
Office of Disciplinary Counsel
1132 Bishop Street, Suite 300
Honolulu, Hawaii96813
RE: Your November 12,1999, Letter

Dear Ms. Richelieu:
ln direct reliance upon your November 12,1999,|efter to me stating that there would be
no reciprocal discipline in Hawaii if a public reprorral in Califomia were based upon the same
information which served as the basis for the reviewing Disciplinary Board Membe/s
determination in ODC 4068 which previously found me not guilty of any professional
wrongdoing, I am writing to report to you that I have today sent the attached Stipulation to
the Califomia Bar authorities, accepting a public reproual based solely upon the fact of my
misdemeanor failure-to-file related tax convictions by Visiting District Court Judge Manuel
Realin 1994.
I have done so only because Califomia has a truly Draconian

disciplinarysptem -which

in the recent past has routinely suspended Califomia attomeys for a minimum of two years
(or more) based solely upon such misdemeanor failure-to-file tax convictions and nothing
more.

Unlike the professional and thorough manner in which my case was investigated by your

I

found mlnself immediately beset upon by young role-plafing
"prosecutors" attempting to convince the 'State Bar Courfl that I was a menace to the
community and should be immediately suspended, based exclusively on a misdemeanor
office,

in

Califomia

conviction, and without even bothering to examine any of the facts of my case, in marked
contrast to my experience with the professionalism and due process of your office.

Fortunately, the 'State Bar Courfl judges did not agree with its prosecutors in my
situation, forcing me however to go to trial next month, if I continued to deny culpability,
thousands of miles away from where my witnesses, for instance, reside.

DUBIN LAW OFFICES
Garole R. Richelieu,

Gounseln December 7, 1999

Ghief D

Such unreasonable disciplinary procedures in Califomia, as you may know, led in part to
the recent revolt in that State's Legislature and among the Califomia Bar that cut off all
funding for the Califomia "State Bar Courf' for over one year, and thankfully led to its new
policy-of expediting the resolution of minor cztses such as mine without such Draconian
discipline.
Since I do not expect to be again residing or practicing law in the State of Califomia, and
since an ethics triatthere would be quite time-consuming and quite costly, especiallyto bring
my witnesses to Los Angeles for trial, after receMng your November 12, 1999,letter, I
decided to accept a public reproval based entirely upon the fact of my conviction by Judge
Manuel Real with the understanding that if my forthcoming efforts to overtum those
misdemeanor convictions are successfulthe public reprornalwill be publicly retracted there.

-

private reprornal, and if I pressed the issue I might have been
successful, but once again Califomia has unique procedures, and in 'misdemeanor tiax
conviction" cases even a so-calted private reprornal is made public on membership records
on the lntemet, so the distinction lost its realdifference in mysituation.

t tried to secure a

The minor discipline of a public reproval, the Califomia 'prosecutors" continually tellme,
is tess than they have ever agreed to for any attomeys with federalfailure-to'file convictions
in the past, bufthat still seems highly unfair to me in my circumstiances, and I am told that
they do not want to vary too far from the otherwise established precedent.

ln other words, they have made a decision in my czse so as to protect somewhat the
consistency of their prior judgments, disregarding my'unique circumstiances"While I am still not pteased with even such a "nolo contendere'plea there, the minimum
required for resolving the matter, the slatem in Califomia -with its 180,000 or so Members
is irankly so rigid ind so unfair that I have reluctantly been forced to now accept that
altemative in oider to exit the process with as little damage to my reputation there as

-

possible.

Very truly yours,

/s/

GcrY Victor Dubln

GaryMctor Dubin

GVD/o
enclosure

2

-)
Seven rraterfront Plaza
Suite 400
500 Ala Moana Boulevard
Honolulu, Hawaii 968{3

DUB
LAW
OFFIGES
voice Mait (808) s4g-il sg

roil

Free (s8B)

Office (808) 537-2300 (808) Dubin Law
Facsimile (808) 523'7733
www.dubinlaw.net

Dubin Law

E Mail: dubinlav,t@msn.com @llular (808) 227'8800

December31,1999

Carole R. Richelieu, Esq.
Chief Disciplinary Counsel
Office of Disciplinary Counsel
1132 Bishop Street, Suite 300
Honolulu, Hawaii96813
RE: Your November 12,1999, Letter
Dear Ms. Richelieu:

to you tltgt
As a foltow-up to my letter to you dated December 7, 1999, formally reporting
I had accepted stipuLteJ, nolo contendere public pproyal in Califomia, and the specific
reasons th'er,efor, oJreJ sol"ty upon the technical fact of my misdeme_anor.Jailure-to-file
in direct reliance
related tax convictions by Msiting District Court Judge Manuel Real in 1994,
,pon Vort November iZ, rcg5, btter to me stating that there would be no reciprocal
in Califomia were
discipline or reopened ethics investigation in Hawaii if a public reproval
Disciplinary
reviewing
for
the
basis
as
the
naseO upon the same information which served
g_uilty
of any
not
me
previously
found
Board Membe/s determination in ODC 4068 which
of
copy
your
aJiled
files
pioi"rtlonut wrongooint on tne same-facts, I am now enclosing for
its
inat stipulation n6w aiproveo and formatly entered by the califomia Bar court for
purposes there.

i

Verytrulyyours,

!s/
GVD/o

enclosure

Gcry Victor Dubln

GaryMctor Dubin

t
condirccd on

o cornraintain

6ilurc
es, and

discipline.re ort
taldcz cooperatcd with thc Srarc Bar duritrg
invcstigation end procccdings, dcmonl
sozted rcmorse, and at thc time -of thc mis-

ic

conduct luftrd Enancial stresr and hardship
dut uar bcyond his conuol

Thc probation order took cffcct

with thc scc$ of maintaining r hv practicc whilc mecting cthicrl and profcssional rcsponsibilitics.

The probation order took effccr

to {ilc
lpublic

Dcccrnber 19.

rnt rp:rs

z 6ilcd

oflca
ot

r prior
flinttcr.
,ltigr.rc.

rnicipal
n miti-

to thc

I anxinc. Ffe
:lis son
.

Rod-

: in his
rll SUt-

tcndid

:s and
esiding

cndcd

terlrc', fohn Uflebe, State Bar #
Ahmide (i.{ovcmbcr l9). Mebe,32,
!4Ty,
brd hb geviorr ordcr ofprobaion cxtr;dj

for onc ycar for Eilurc to comply with thc
tcrns andcoadig'9rs o thc prwiousprobation
_ In Agril 1998 Wicbc r,,* ortp"rrLdfo, 90
days and until hc rnede ratinrtiin ofS900 to
one clicnl A&o- hc was placcd on rwo ycar
of probation for Ailurc to meintain ciicnt
fm6 in uusi, Eilurc to prompdy pay fun& ro
e dicnt, rnd cntering into e brxinU tehtion_
ship rdversc to r client
In aggnnation, Wicbc hrd I prior rccord
_

ofdiscipline, thc undcdying rrrattcr. His rnir
conduct-involvcd multiplc ecc of wtongdo_
lng dret lrurncd the edminisu-atioa ofjuslce.
In mitigetion, he rcknowlcdgcd thai :ccrs
6om sgbsa-cg ebuse conributcd to his dclay
in complying with thc rerms and conditioas
to probetion. He har cnrollcd in z subst acc
abusc rccovcry prcgrarr4 rc0ecting his good
faith.cffortr to tearn stratcgies for

the

Dcccarbcr 19.

Public Re'proval
Gary Vlctor DnDln,

oflaw.

I Rod-

rtating that hc was not rcguircd to 6lc the
tax rclums..Also, thc misconduct did not
involvc dicnb.

Hsnry R. Esk6ns ll,

Stetc .Brr

Stere

Bar #

flc fcdcrd frrcomc irx rcnlrs.

loJanuary 1994 Dubin was convictcd of
violatioa of26 USC rcction.7203, Eiturc rc
6lc ftdcnl iscome t$( rcnrms, fiom 1986
through t988. Hc hrs fiic 6lcd thc rcrurns
but o-lycd no taxc3 for thosc ycarr bccaurc of
busin'csr losscr. At lbout thi seme timc hc
6ilsd je 6lc thc'toc rcnrms. he nres bcine

ruditcd. lle rcccivcd a lcttcr ftorn ei
crrployce Of thc lotcmd Rcvcnuc Scrvicc
steting that hc wrs bot rcquircd to fitc
idcomC ta:( rctrrrru for the ycars covcrcd by
die audii

tcndy pcrform lcgd scrrdcc.

ln April 1994 Eskcns cntcrcd into.en
rgresncat with l fnencial scrrdccr company

to act 2s trustec ofscclrity placcd in tnrst
for thc bcncft of invcstort who purcblscd

5culd c:orporate promissory noltcr ro be
i"ud by the compeny. Eskcru abo rcccivcd e
dccd ofassignmcnr, cccurcd by thc ptcsidcut

of the company, assigning the co.mpany'r
intctcst in t94{r,800 worth of U.S. Trcaru4,

P*

of Eskcns'r Gduciary auty ws t6
!i&.
disclosc ftlly thc naturc and cxtent of the
sccutity so es to evoid any mireprcscnation
In Mry 1994 Eslccrs scnt lettrrs o porential
invcstors idcndfring hirrscEas e liccrucd Glifomh aaomey carploycd by dre company as en
indcpeodcnt uustcc o hoti ana
sccurity for thc corr4nnylpromisory notcs.
At thc timc hc wrote the lcttcr, Bkcns did
not have possession ofor acccss to thc sccruity
end was nor in a.position to administcr thc
seorrity for thc bencft of thc invcstos.

-

or..l-;.cin

ryr3a
.cz has
ics and
sPorB,

tr

Dt

s{

rcretcd

C'prolcttctr

cIIect

mos Elddf

and operating

aod you

erp€nses

Gatfurhetrbroadonpr
the fuss or delay of

rroved

nilE

withrtc llar

CafpeDlen

rroval
r. Bar

appl!

nducg
:tc six

needs.

(indudlng

TAIG GOilTNOL WITH
codga{s tine ad

I, was
itlc @
t/lt

Blite and

csts

&rdness

i3865,

you to

qss
'*

I charaRd as

'ht" lfi),0fi)

users

ln over

toprovldepur
andlrlghrproSb.

€deo0y.

lort

lt

loa

slatus

.cation

b

the

I Statc

s. thc
i:cern
a and
ecord
roval.

rltiplc
rnisicnts.

CIf,CLE

'I

#

Sudidc (Ocobcr 26). Esleru, 40,
uns-publidy rcprovcd for lilure to compc123898,

34595, Honolulu, Hewdi @eccmber 15).
Dubia 6{ uns publidy t?rvcd for Eilure
to

reproval toolc cffLrt Dcccmbcr 31.

ON REAO€R SEBVICE CAIO

cAt.tFoRNtA

tAwy€R 79 ,ur.rs zooo

RECORD:

Doc. 4L, Exhibit

9

rage I oI lJ

Real'I'rou-ble

)

ELUEPRflNT
Home

/

ln-Depth Reporting

/

All you need to run Your
firm in ene place'
LEARN MORE .i;

RealTrouble

FEATURES

Real Trouble
POSTED SEP 01,2008 01:10 PM CDT
BY TERRY CARTER

Judge Real
Photo bY Virginia
Lee Hunter

Gary Dubin spent 19% months in a california federal
prison and returned to Hawaii in october 1996 to
practice law. The state's Office of Disciplinary Counsel,
extremely unusual decision concerning a matter of
in
"n turpitude, determined that a finding of professional
morat
misconduct was "not warranted." Later, even the U.S.
lnternal Revenue Service reversed itself, saying he didn't
owe the $1.5 million that was the basis of his three
misdemeanor convictions for failure to file tax returns'
tn fact, the agency gave him nearly $t00,000, including
interest, from payment in an earlier tax year. The IRS
had found that he indeed had substantial business
losses and deductions for the years in

question, and that they could be carried back'
goes, thus far' for the
He can't recoup the time behind bars; the same
rRs looked into the possibilig of
$131,ooothe judgefined him. rn 2006, the
it couldn't because the
crediting the fine io his next tax liability, but found
money went to the court.

http ://www. abaj ournal .coml magazineI articleheal-trouble

st3U2017

I(eal I rotrDre

LA6wLVLLJ

the lRS. He
Dubin still seeks redress beyond his vindication from the bar and
the man who
has filed complaint after complaint in venue after venue against
supreme
sentenced him-including a 2006 mandamus petition to the u.S.
Coutt, where ceft was denied.
dragnet
Dubin had been Hawaii's example in "Project Esquire," €l nationwide
case had
by the IRS to snare lawyers for failure to file tax returns. Dubin's
been scheduled for a bench trial with a magistrate there'
Judge
But on short notice, it found its way to the docket of u.s. District
in the
Manuel L. Real-a jurist known for a heavy hand with errant lawyers
central District of california-who was visiting on the bench from Los
Angeles.
Dubin claims Real, now 84, railroaded him 14 years ago'
It is a rare federal judge who hasn't attracted such
*'
'#H,
complaints. But there have been many similar complaints
about Real (the judge pronounces it "reel") over four
1
:?
decades by plaintiffs, defendants and lawyers alike, as
well as appellate decisions occasionally attacking the
b|t
judge,s handling of cases. Three times this year, cases
have been summarily removed from Real's docket.

vl

ln one decision by the san Francisco-based 9th u.s.
circuit couft of Appeals in March, U. S. v. Hall, the court
Gary Dubin
remanded the case of two men convicted of securities
Photo by Chris
fraud and ordered that it be given to a different judge.
McDonough
The opinion noted "the catalog of inappropriate behavior
one example'
by the trial court is long, so we merely summarizeit here'"
,,sua sponte interposing adverse evidentiary rurings with such frequency that
make
the government was effectively relieved of its responsibility to
objections."
"That's what he did to me, among other things," says Dubin' ln May he
the Judicial
reworked his detailed, document-rich petition and filed it with
conference of the United states, which recenfly expressed serious concerns
mid-1980s.
about the judge's actions in scores of cases going back to the

http ://www. abaj ournal .coml magazine I articlelreahrouble

513U2017

I\941 I rutlulg

r4Bs J Ur rJ

Since his conviction was upheld on appeal (though the 9th Circuit accepted
on its face a crucial finding of fact that seems indisputably erroneous), Dubin
knows he is seen by some-especially since serving as his own lawyer-as a
kook wearing a tinfoil hat.
"l have to pursue it," the 69-year-old Dubin still says' "lt was wrong'"

JUDICIAL REVIEW
The Judicial Conduct and Disability Committee of the U.S. Judicial
Conference asked

(PDF) the 9th
Circuit Judicial Council in January to review 89 of Real's cases in which the
appeats court found problems. (The number reportedly has been cut somewhat. And the review would not inctude Dubin's conviction, because it was
(http://www.ceg.uscourts.gov/misconducuorders/committee-memorandum-89020'pdf)

upheld on appeal.)
Judge Real did not respond to requests for an interview. He has granted
them a number of times over the years with various publications. But he lately
has hunkered down and tawyered up to battle investigations into whether he
has a "pattern and practice" of not giving reasons for his decisions when
required and whether it is "willful."
,,The

most interesting and far-reaching question is what are the limits? Where
do you draw the line between judicial freedom to make mistakes-wrong
decisions-which is protected, and judicial misconduct, which isn't?" says
Arthur Hellman, a professor at the University of Pittsburgh School of Law and
a leading authority on federal judicial ethics'
,,Does there come a point where a willful pattern and practice becomes
misconduct?" Hellman continues. "This touches closely on the substance of
judicial decision-making, which is off-limits from disciplinary proceedings. lt

could be a major test case of where that line is'"
David Oswalt, a senior counsel in the Los Angeles office of Arnold & Porter,
heads Reat's team of tawyers, which draws from other firms as well as
academia, but says he cannot comment given the nature of the proceedings.
judiciary's
After congressional rumblings in recent years about replacing the
self-regutation with an inspector general, the U.S. Judicial Conference is
pushing harder for circuits to deal more forcefully with errant judges. Real

htp://www.abajournal .com/ magaztne/ atticleheal-trouble

s/3U2017

t(ean I rouDle

rage

4l

or rJ

2006
became a prominent example in this effort. He was called to appear at a
hearing of the U.S. House Judiciary Committee, which was considering his
possible imPeachment.
,,lf
the Democrats had not taken back control of the Congress shortly after
that, he might have been impeached," says Henry Weinstein, who for many
years covered the gth Circuit for the Los Angeles Times before recently
leaving.
in
On the heels of such criticism, the U.S. Judicial Conference implemented
of
April the first-ever nationwide rules and procedures for all circuits' handling
judicial misconduct complaints. lt's a step away from the decentralization that
has given the circuits wide latitude in dealing with their own'

to
And one element in the new disciplinary procedures was clearly tailored
address the kinds of issues that have come up with respect to Real.
The changes resutted from recommendations by a committee headed by
supreme court Justice stephen G. Breyer. ln 2004, partly responding to
complaints from Congress, then-Chief Justice William H. Rehnquist created
Act
the committee to study whether the 1980 Judiciat Conduct and Disability
judges'
had been effective in dealing with complaints against

The Breyer committee found that while for the most part the law was
effective, there were significant shortcomings in high-profile matters. The
be
report detailed several instances without naming names, but one could
judge and
clearly identified as Real. The report said that actions by the chief
"inconsistent with
circuit council in dealing with a complaint against him were
the law."
of
The rules declare that a "chief judge shall not undertake to make findings
fact about any matter that is reasonably in dispute." Still, the complaint
on
against Real was twice dismissed by chief Judge Mary schroeder based
her own findings-and upheld by the 9th Circuit council'
tied
Likewise, the Judicial Conference's conduct committee found its hands
when considering an appeal by the complainant: lt could review only matters
Judge
in which a chief juOge named a special investigative committee, which
Schroeder had not done.
Under the new rules suggested by the Breyer committee, the conduct
committee now can request that a circuit appoint one.

http ://www. abajournal .coml magazne/ atticleheal-trouble

s131l20r7

rage J 0r rJ

t(eal I rouble

judicial ethics are
Compared to federal rules for judges, state canons for
longmore specific as to what judges can and cannot do. And it has been a
police
held belief in the federal circuits that they could, and should, effectively
their own-often with a quiet, personal touch'
ln the early 1990s, charles Geyh, a professor at the lndiana University
judges in
School of Law, interviewed more than 30 current and former chief
judges. He found
the circuits to study how they handled complaints against
judges seemed to
that informal measures for dealing with abusive or troubled
work.
*But as I've gotten farther down the road and also studied judicial discipline at
judges take
the state level, l,ve begun to appreciate that even if federal
public
keeping a clean shop seriously, there still are two problems: The
and
doesn't know that they're doing so, so they suspect nothing is happening;
deal
federal judges take pride in collegiality, making it very hard for them to
with their own dirtY laundry."

REAL'S MODEL
over the years, Manuel Real has told a story about

f,

-t:

fr

{{H

:+#

I

Eltis

Gresory
Photo by

Thomas

Broening

a

case he had as a young prosecutor in the early 1950s in
front of a judge who became his judicial role model.
Real was prosecuting two men charged with sending
pornography through the mail-nothing more than bare
breasts; it was the early 1950s. one pleaded guilty
before Judge Peirson Hall, who promptly acquitted the
other in a bench trial. The first man then asked to
withdraw his plea and go to trial with Hall. The judge
agreed.
That piqued Real, who demanded a jury trial. The judge
obliged, telling his courtroom clerk to call a jury for 10

p.m. Real said he couldn't prepare that soon'
Hall,s reply: case dismissed for lack of prosecution.
an
The story brings smiles to most who hear it. But if adopted generally, such
prison
approach in the courtroom could free the guilty or send the innocent to

http ://www.abaj ournal .coml magazineI article/realJrouble

513U2017

r\gan I l.uuul€

.raB(, u

ur rJ

Los Angeles criminal defense lawyer Stanley Greenberg believes one of his
clients spent more than ayear behind bars, fully innocent, before the case,
U.S. v. Mayans,was remanded and later dropped'

on appeal, the gth circuit found Reat made four reversible rulings concerning

testimony and evidence. But the circuit was particularly rankled about what it
viewed as the unconstitutional denial of an interpreter for the defendant, who
had come from Cuba and struggled with English'
The remand opinion noted that "we find ourselves in the peculiar situation of
being unable to review the district court's determination that appellant did not
need an interpreter. The trial judge never conclusively made that
determination, but rather urged appellant over and over to try testifying in
Engtish-to 'try it.' "

Otherwise, Real had said from the bench, the testimony "takes twice as long."
Although Greenberg, who was a federat prosecutor in L.A. in the early 1970s,
is reluctant to criticize Real, others familiar with the case say he's still
dismayed nearly 16 years later. At trial, instead of asking whether the
prosecution had any more questions for a witness, an exasperated
Greenberg is said to have asked if Real had anything further to add.
a complex person and there is another side to him," Greenberg says
,,t've
seen him do extraordinarily compassionate things from time to
now.
I
time, taking great interest in probationers and actually reading whatever
submitted-which you don't always expect with other judges'
,,He,s

,,But given a choice, it's not a courtroom I'd ever choose. lt's very unpleasant
because he makes it very unpleasant."

Off the bench, Real is described by most who know him-including some
who try to avoid his courtroom-as a caring gentleman and a charming,
pleasant figure at social and professional gatherings.
Manny Real, as many call him, grew up in san Pedro, calif., where he lives
today. His parents emigrated from Spain and his father was a grocer'
For decades, he has insisted his law clerks live near enough to him that they
can ride together for the 35- to 4S-minute drives to and from the courthouse.

http ://www.abajournal .com/magazine I article heal-trouble

513y2017

rdEfj t vL rJ

I\(iall I ruuulE

"lt was our alone time with the judge," says Gregory Ellis, who clerked with
the judge from lggg to 2000. "Wewould listen to NPR and discuss the news,
or we could talk to him about pending cases, what he thought of them, any
motions we had heard; and if he had them, he'd ask us questions."
Real takes an interest in staff throughout the courthouse, Ellis says: "He tries

to create a family atmosphere for everybody."
After finishing at Loyola Law Schoot of Los Angeles in 1951, Real spent four
years as an assistant U.S. attorney there and then 10 years in private
practice with his brother in San Pedro.

ln 1964, a close friend who was an influential Democrat recommended him to
be U.s. attorney in Los Angeles. Just two years into the job, Real was
appointed to the federal bench by President Lyndon Johnson.

probably Real's most significant judicial decision came early in his career. ln
1gTO, he ordered busing to desegregate the Pasadena public schools. lt was
the first such order outside the South. A Perris, Calif., elementary school was
later named for him.
His most notorious decision was in 1985, after Hustler magazine publisher
Larry Flynt appeared before him on a contempt charge from another judge in
U. S. v. Flynt.
At sentencing, FIynt repeatedly taunted Real:
you can do?"

"N/e{hsrf-,

is that the best

Not to be outdone, Real upped the ante each time. from six months to 12
months to 1S months. The scene was in the 1996 movie The People vs. Larry
Flynt.

ln real life, Real was reversed; the 9th Circuit ruled Real did not take into
account Flynt's mental competency.

PERSONAL TOUCH
With more normal defendants, Real is often known for his
compassion, and-sentencing guidelines be damned-if he
thinks a person is salvageable, he crafts unique remedies,
often with thousands of hours of community service in lieu
of doing time. He monitors each of these probationers
personally.

http ://www. abaj ournal. com/maga zineI atticle/reallrouble

5t3t/2017

raBg o ur rJ

r(eal I rouole

In a case in 2000, he went too far to help one of his
probationers. On his own motion, Real seized her personal
bankruptcy case and, based on ex parte communication
with her, stopped her landlord (former in-laws) from evicting
her or even collecting rent.
i;

It is the matter that found its way into the Breyer
committee's report for having been mishandled by the 9th

Victor Sherman

Circuit.

Photo by Thomas

"Because he cares so much and gets personally involved in
cases, I think that sometimes backfires on him," says Laurie
l-evenson, a former federal prosecutor in Los Angeles and
now a professor at Loyola Law School there'

Broening

Real received a Public rePrimand

(PDF) in JanUafy fOf
his handling of the bankruptcy matter, though it took five years after the initial
complaint was filed in 2003. lnterestingly, the complaint came from Stephen
yagman, a lawyer with no interest in the case-other than a grudge against
(http://www.ceg.uscourts.gov/misconducVorders/committee-memorandum.pOf)

Real.

It is a grudge Yagman has carried since 1984, when Real fined him $250,000
for unprofessional conduct in a civil suit. Yagman was a prominent civil rights
lawyer with a specialty in police misconduct.

yagman said at the time that Real "is a tyrant who is a disgrace to democracy-he is a modern-day Torquemada. He suffers from boredom and
indulges himself in infantile and harsh behavior to create situations to
alleviate his boredom."
The 9th Circuit reversed the ruling and remanded the case for another judge.
Real refused to let it go and instead sat on it-he was waiting for a ruling in
another case in which he asked the appellate court to vacate an order taking
that matter from him.
Real then did the unthinkable
He filed personal petitions for certiorari with the Supreme Court, in 1986 and
1gBT, asking that the two cases be returned to him. Cert was denied on both
In re Realand Realv. Yagman.

http ://www. abaj ournal .coml magazine I article/realJrouble

s13U20tl

EAB(,

t(ear r r0uDre

t VL L)

Earlier this year, yagman went to prison, convicted of tax fraud- And there is
no word on the source of a more recent and more significant complaint about
the judge. But yagman's case drew so much scrutiny that other complaints
were bound to gain traction.
When the Judicial Conference's conduct committee upheld a public reprimand of Real in the probationer's bankruptcy matter, it also issued another
opinion concerning Real that was a bombshell: lt asked the 9th Circuit council
to review scores of cases for a willful pattern and practice of not giving
reasons for decisions.

The matter had not previously been disclosed'
Real has found himself, in effect, on the receiving end of advice he is famous
for giving lawyers in his court: "This isn't Burger King. We don't do it your way
here."
pittsburgh's Hellman says, "There has been evidence of problems with Judge
Real for a long time, and the fact they are acting now in this way may be tied
to the higher level of congressional interest and the raising of doubts whether
the judiciary successfully policed misconduct in its ranks."

yagman was just one on a long list of tawyers who Real has jailed or tried to
jail over the years.
"Everybody has a horror story about a trial they had with Judge Real," says
Maria Stratton, laughing because she thinks well of him. She was the public
defender for the Central District of California from 1993 to 2006 and is now a
judge in Los Angeles Superior Court'
Real once insisted she be in his courtroom at 9 a.m. ratherthan first
appearing at the 9th Circuit, nearby. Protocol defers to the higher court'
,,He
threatened to hold me in contempt," says Stratton, who said she rushed
and was only a few minutes tate to Real's courtroom. "Then that night at a bar
function, after l'd gotten an acquittal in his court and he seemed upset about

it, he couldn't have been nicer'"

JEKYLL OR HYDE?
others say they never see Dr. Jekyll, only Mr. Hyde, when
dealing with Real.

http ://www. abaj ournal .com/ magazirne/article/real_trouble

st3U20l7

^('i1l

faBg rv ur lJ

I rUUUl(i

ln 1971, Santa Monica criminal defense lawyer Victor
Sherman was ordered to jail for four days over a routine
evidentiary question.

Gary
Lincenberg

"But it was really because he found out from a marshal that I
gave him the finger as he stepped from the bench in another
case shortly before that," says Sherman, who had been
exasperated by the judge's refusal to allow him to examine a
witness on a parlicurar point.

The gth Circuit knocked down the jail term. "And I got him
by
Thomas reVersed on the evidentiary matter," Sherman SayS. "At one
Broening point, I got him reversed six times in a row'
photo

"Lots of lawyers have these kinds of stories about Judge
R.eal, but not many of them will talk about it publicly," he adds'
lndeed, a dozen Los Angeles lawyers contacted for this story, some of them
well-known, were eager to talk about bitter experiences in Real's court, but
not for the record. One who has spoken out in the past, and is known for his
collection of negative information and court decisions about the judge,
declined to go on the record now because he has a client awaiting sentencing
before Real.
Real's defenders, and he has plenty (though some of them, too, declined
either to be interviewed or to speak on the record), say his motives are not
malevolent.

The president of the Los Angeles chapter of the Federal Bar Association,
Gary Lincenberg, does speak out and disagrees with the mounting criticism
of Real. The jurist has long been on the association's board and, while others
judge
occasionally miss meetings, he is always there, says Lincenberg. The
is particularly interested in helping younger lawyers, he adds.
,,Given the controversy he is in the middle of, I think that other judges might
be bitter, but he stays very focused on the big picture," says Lincenberg. "lt's
fine if somebody wants to criticize his decisions-that's what law is all about.
I don't think criticism of his good

faith is warranted."

http ://www. abaj ournal .com/ magazine I article/real-trouble

s13ll20I7

I\g4I

Lo'BWtlv.LlJ

I IULIUIg

Says former clerk Ellis, now a Los Angeles litigator: "He's very good at
sniffing out people who are unprepared and sniffing out witnesses not telling
if
the truth. The accuracy of his BS detector was off the charts. Typically,
lawyers were prepared and knew the papers, they did oK in his courtroom,
even if he didn't agree with them'"

The celebrity lawyer Howard weitzman says he always came prepared and
a
still had difficulties peculiarto Real. ln the 1970s he defended a lawyer in
criminal case who was convicted in a trial before Real. The case was
remanded and tried again before Real. On the second remand, the case was
heard before another judge. The lawyer was acquitted.
Weitzman has tried a half-dozen or more jury trials in front of Real, observed
a number of others and found the judge's behavior problematic in all of them'
,,l,ve
seen him make it clear to jurors he doesn't agree with the direction of
"And I saw
your questioning or doesn't believe your client," Weitzman says'
him take over questioning of witnesses if the side he prefers wasn't doing
juries in such
well. He continually demeans and puts down lawyers in front of
r
a way that t think it averts afair

trial."

this sort of courtroom in which Dubin says he found himself in 1994.
His story in brief: Just before his trial, a psychiatrist was having Dubin
of
admitted to a psychiatric hospital for depression over both the slow death
to his
his son two years earlier from AIDS and the whirlwind of events that led
case being moved suddenty to a bench trial by Real.
with
Dubin, a respected litigator and appellate attorney, had been scrambling,
the help of others, to get a top-notch lawyer-specifically, Richard BenVeniste of Washington, D.C.-to represent him. Real denied a continuance.
just as he was being
Real sent U.S. marshals to bring him to court for trial,
day
admitted to the hospital. Dubin was forced to defend himself for the next
and a half white sluggish with newly prescribed anti-depression and antito
anxiety medications, and without the letters and tax records he needed
make his case-including proof of extensive deductions and business losses,
and a letterfrom the IRS saying he did not have to file yet for some of the
years in question because he was already being audited before the dragnet.
It was

http ://www. abaj ournal.com/mag azrneI article/real-trouble

st3U20r7

rage rz ot L)

Keal rrouDle

When Dubin-who Real kept in lockup when he wasn't in court-complained
that the evidence was at his home, the judge dispatched an acquaintance of
Dubin's to obtain the files.
"The room at Dubin's home was wall-to-wall boxes of documents," SayS
James Clement, the now-retired tax lawyer who ran the errand. "l came
across some that looked right, but when I took them to the courthouse they
turned out to be copies of the prosecution's exhibits.

"lt is my understanding that everyone knew at the time that he didn't have the
records he needed for trial, and that the judge just wouldn't be bothered with
it," says Clement.
Despite this, in his finding of fact No. 1 1, Real said the defendant had his
records "brought to him ... by a friend, also a lawyer, and those records were
available to Dubin throughout the trial."
Real even tacked on four months extra under the sentencing guidelines he
often openly eschews, for obstruction of justice-because Dubin was at the
hospital instead of coutt.

Clement later wrote in a signed declaration: "l know of my own personal
knowledge that finding of fact No. 11 is absolutely false."
At the appellate levet, there is a presumption that findings of fact are just
that-fact. And in the 9th Circuit, Real's findings went unchallenged.
"What is disturbing about [Dubin's complaint] is that quite a bit of evidence
seems to have been available to the judiciary-long before the impeachment
proceeding or misconduct proceedings that resulted in reprimands-that
suggested the judge is really a danger on the bench," says Hellman, who has
not studied the Dubin case.
The judiciary is now taking what many believe is a long-overdue, in-depth
look at whether Reat's decision-making runs so far afoul of law and
procedure that he is engaging in misconduct'

As Hellman says, the result could draw a new line of demarcation between
independence and discipline-one of the touchiest areas for the judicial
branch.

http ://www.abaj ournal .com/ magazine/

atticleheallrouble

513ll20l7

raBtr rJ ur lJ

r(eal lrouDle

Considering the gth Circuit council's call for a private reprimand for Judge
Real, the Judiciat Conference's conduct committee in January said, in effect,
no.
,,lf

the council finds willfulness, it should consider a more severe sanction,
such as a public censure or reprimand and an order that no further cases be
assigned to the judge for a particular period of time," the conduct committee
wrote.
Short of impeachment, that would be the worst fate imaginable for a jurist
who twice petitioned the Supreme Court personally in an effort to hold on to
cases that had been reassigned.
[-ike his nemesis Dubin, Real is a man who fully believes he is right and has
been wronged. And he presses every challenge as far as he can'

trEItrtrE[@67
copyright 2Q17 American BarAssociation. All rights reserved

http ://www. abaj ournal. com/maga zineI atticle/realtrouble

s13ll20r7

4549

Form

Add.a3r

GARY

V.

lncome Tax Exarfilnafion
ofTrgtyar

SS

DI'BIN

orE

1, Adjustments to lncomc
a. Ite$ized Deductl,oae
b. schedule C Grosa EuEioeeg Inconc
A SCH C BI'S DEDUCTIONS
d. NoL

gI

axmhaflondaq6

urlrd'noBd.

96

Endurrr/rrr Ptlod End:lllrre

l.0ll.

o0

?l.aat.0o
!0,151.00

carryback/Carrytonerd

10to

-Etlr

900 Fort, SEredt lilall

suiEc faio, Ptonecr plrza

llo:

l{0. r.3a.00t

e. OEher Incoue

El4.rrrvlrr l.

l15r.odl

a.

21,7:,0.00

927.00

t3lr26t

?5,

a!,t33

lur.

t01.0c

t2t, ?01.00

b. NOE

d.

t-

f.

s.

e.

h.
t.

h.
t.

t.

Endurunlrr
ta,ott . ool

Curybach,/Cirryf orrard

q schlilula'C
..

o56,ool

Adlurtmcntrtolncomc

ll,Goircd DcductLonr
GrorC

scll c

Burlnc$ tncoue

BUs DEDuerIoNs
SB ACf edJurtnrnt

t:tr

633.00

1.15t
52. !:?.00

J.

k

k

t..

.t.
m.

m.

n.

n.
o.

o.
5t,5?t.0o

2. Total Adiustments
3. Taxable lncome Per Retum or a3

la?. r5r.0ol

Ad.lustcd

13,115.00)

Tax Method
Finng Status

E xl

tlt
B$.lFl.d
cf 'lELl

5- Tax
6. Addilional Taxes / Altemallw Minlmum Tax

0.o0

7. CorEctcdTa(

0.00

Credlts

tY

15,125.00
l!a?, ar0. ool
lr?2.t55.001

ll6t.3rr.

Z TotrlAdlurtdrntr
ool

3. Tagble lncoma PerRclurn

trl

rAtrS
!1a91.

Tll iA|IT
8!.aglq

0.00

orar

1,

'

Tq
o.oo. 5. Trx

Mpthod.
Fifng SLtut

0.00
Crcdit

c.

3taglr

/Altcmalivr Mlnlmum
0.00

Tex

8.-lrrr

trx tAlta
0.00

8. AddlUinal

a.
b.

lalt.aaa.0ol
It.lao. ool

!.

Gcocral Bueiaeer crcdlt

b.
G

d.

d.

t.co

rough 8d)

ti.

a.c0

910022t

0.00

0. oo

ScrBtlc
or

hc Unltrd Sbtcr

my
to thc lmmodiate asrsssment and
rcport Therofora, I
rny
Tax Court thc lindings ln
and accept any dlcroase h tar and penallios shorvn above, plus addilionat lntarest ar p.Dvided byhw.
lncrcase in tar and
Flcld
a

.etumwasliled,

Internal Revenue Service
Appeals Office

Department of the Trelsury

915 SeoondAvenue
Roonr 2790, MS W680
Seattle, WA 98174

Person to Contact:

Vicki Olsen
Employee ID Number: 9-95658

Tel:

806)220-60s9
Foc: (206) 220-5925
Date: April 13,2006

CARYV DUBIN
55 Merohant Steet#3100
HONOLULU TII 96813

Refer Rupty to: AP:FW:SEA:VSO
In Re: Abatement of Interest/Penap
Trx Period(s) Endedl

LA$8s r2lt988 rur989
tal990 La$il wrc92
LuL993 rAL994

DearMr. Dubiu

I am faxing you this letter in fespo$e to your inquiry regarding the $125'000 penalty.
I pgrsued the possibility of orediting part or all of the $125,000 penalty to your IRS
liability and have determined that the penalty went to tho court and not to IRS, that I have
no jurildcUon over the penalty, and any adjushnent would have had to have been done
bythe court, presumably through an appeal'
You will have to contact the court system and pursue adjustrnent, refurd or reliof there.

If you have any questions,

please call me. Thank you.

Wt',n%r^Vicki
Olsen
Appeals Officer

(

RECORD

z

1,1,

/ L4 / L7

Transcript

Before the

1_

DISCIPLINARY

2

BOARD

of the

3

HAWAI'I

4

SUPRBME COURT

5
6

OFFICE OF DISCIPLINARY

1

COUN S EL ,

ODC

Petiti-oner,
GARY

1

6-0 -2L3

1_6-0-r41

)

Wr+g

vs.

9

No.

1_6-0-15L

B

10

)

MISC!FtINIARY BOARD

V. DUBIN,

Respondent.

11-

r6-0 -326

CIF Th{r
HAWAIg SUPRHME COURT

REOEHWHD

)

fS

No(ury1b+-r )ot7
oey- -lffiTH-

I2
13

TIME:

HBARING

I4

d:go

YEAR

prn ,rM

(VOIUMEII),

of Disciplinary

counsel, 20L

15

Taken at the office

I6
L7

Merchant Street, Suite 1600, HonoluIu, Hawaii
g68L3, commencing at 9:05 a.m., oD November !4,

1_8

20L7

.

L9

20

BBFORE: HBARING OFFICER ROY HUGHES'

ESQ.

2L
22
23

Reported By:

SUE

M. FLINT' RPR, CSR 2"74

Notary Public,

State of Hawaij-

24

25
RALPH ROSENBERC COURT EPORTERS I rNC
Qhawaii . rr
( 8 O 8 ) 5 2 4 - 2 0 9 0 / coartrePotters

com

2
3
4

At lunchtime,

A

1

I tried

to count them. I

stopped at 300. MY comPuter didn't go uP to the
for al-l twentY Years -- 25 years.
earlier
Were You ever disciPlined for actions in
0

6

any of these cases besides the ones that we've
in terms of what's
If you mean discipline
A.

7

happening here todaY

5

8

0.

9

A.

10

11

t2

Right.
PotentiallY?

No '

And obviously, when you say rlor you
have you ever been sanctioned for anything
client
dealing with clients,
O.

A.In54yearSofcontentiouslitigation'fIor

13

L6

I'veneverhadanychargeofwrongdoinginrelation
to a client' ever pinned on me at all' never'
hearing in
never have been in a disciplinary

I7

life

L4

15

18

T9

20

mean

I
my

include the fact that you were
understand, you were convicted by Judge

Does that

O.

as we all

Real for tax
Yes.
A

22

And Irve explained alreadY on the
in
I think I did exPlain
record what haPPened

23

California.

2L

24

NotonlydidHawaiitakenodiscipline

25

againstmeforthat,thedeputydisciplinaryofficer
RAI'PH ROSENBERG COURT F.EPORT ERS I rrvc
i rr. com
( g O 8 ) 5 2 4 - Z 0 9 0 / coartr.eporter s 9hawai

56
1

2

at the time was Michael Lee, who is in law practice
and if that means that issue is
here in Honolulu

4

we can bring him
import,ant to the hearing officer,
he called me up after a three and a half Year
in

6

investigaLion,

6

public

3

said he was golng to recommend

reprimand.
MR. KIM:

1
8

being totallY

9

any of this

Irm going to object to this as

hearsdY, and there's

information,

to support the representations

11

the record.

that hets making

HEARING OFFICER HUGHES:

I2

no foundation for

nor are there any exhibits

l_0

13

I understand'

MR. WAIHEE: I 'm sorrY.

Mr. Hearings

L6

Offi cer , wer re j ust glving some background '
HEARING OFFICER HUGHES: f said it's

t7

allowed.

18

MR. WAIHEE: OkaY.

L9

THE WITNESS: Irm trying

20

2I
22

23
24

25

on

allow it.

I'LI

I4
15

a

A

to move it along'

So he said he would give me

he would

try for a Private rePrimand. We11, the board
decided to charge me with no professional
misconduct, and I rece j-ved a Ietter to th'at effect,
that the.Tudge Real incident and my three
misdemeanor convictions did not warrant any
P.ALPH ROSE}IBSRG couRT F,EPORTERS I r,NC
( 8 O 8 ) 5 2 4 - 2 0 9 0 / courtrepor tet s Ghawai i TT , COM

1

And those files

2
3
4
q

6
1
8
9

10
11
1,2

are in Mr. Kim's office'

presumablY

MR. KIM: I'm going to obj ect to this ' I
reaIly am going to object to this. You said that we
are going to try one issue at a time. we finished

issue number one, which is what he's referring to,
t,his morning. My understanding was that there was
not going to be any more evidence' either
or documenLarY, on that issue after
concluded it, and you noted on the record that
were finished with that issue this morning'

we

testimonial

Now

13

t4

whatsoever.

discipline

we

about that issue all

he's testifying

over again.

I5

MR.

WAIHEE: I think Counsel-

IO

MR.

KIM:

The issue before You right

now

20

the issue before You right now is
not whether or not he
the issue of the ICA referral,
was convicted of tax violations back in 1995.
HEARING OFFICER HUGHES: I thiNK IhC ONIY

2I

thing that's

22

no

t7
18

L9

excuse

me

being established

is that there

z5

MR. WAIHEE: Sanctions

24

HEARING OFFICER HUGHES:

25

was

'

disciplinary

proceedinginconnectionwiththat,andtheyjust
RALPH
( go g ) 52 4-20 90

T

REPORTEP-S

/eourtreporters

I

r,NC

qhawaii . rr

. com

4

1

2

under advisement.
MR. WAIHEE: Thank You'

I also want to

4

makeasecondmotion,andthatistomovetodismiss
misconduct.
the Smit,h caSe based on prosecutorial

6

And it,s

6

thatbetweentheyearsofapproximately1996and

3

based on this:

The fact of the matter is

B

2O00,theissueofMr.Dubin'smisdemeanor
conVictions were taken up by the oDc in Hawaii; that

9

those files

7

should be available

in this

office

and

misconduct to cross-examine a witness on
issue and not letting You know that, io fact

10

that it's

11

this

I4

that the dismissal of those charges had, in fact '
occurred; that this issue was taken uP, it was
handled bY the ODC; ODC didn't take anY action of

15

it;

I2
13

I6
1-7

actualIY, dismissed it'
HEARINGoFFIcERHUGHES:I'veheardthat

motion.
Before we go further,

18

19
20

in support of that motion? Itm talking about that
has been made part of the record that You have
MR.

21_

22

s

econd

WAIHEE: The first

motion or the

?

HEARING OFFICER HUGHES: The second

23
24

do you have evidence

motion.
Themotiontodismiss,theinitialmotion

25

RALPH ROSENBERG COURT F-EPORTERS, INC
(

8O8)

524-2090/courtreporters9hawaii

'

rt

com

5

1

2

be taken

made' will

uP

after

I've

the evidence, ds well as my notes regarding the
testimonY taken. Then I witl rule on the motion'
right'

4

MR. WAIHEE: Alt

5

HEARING OFFICER HUGHES:

6
1

I2
13

I6

ODC

conducted a hearing'
HEARINGoFFIcERHUGHES:onwhatever
want to know whether you have Presented

basis,
that as Part of the numerous voluminous documents.
I
MR. WAIHEE: No' we haven t.
HEARING OFFICER HUGHES: I WANI tO

T4

15

SCCONd

and

MR. WAIHEE: Having investigated

10

11

AS fOT thC

motion, on prosecutorial misconduct based on
having made these charges previously

B

9

of

revi-ewed all

those documents if you have those documents
MR. WAIHEE: Mr. Hearings Officer'

SCE

'

may I

L9

ask that You order the production of those files
from the ODC?
HEARING OFFICER HUGHES: You're bringing

20

the motion.

t1
18

2L

You must have some basis f,or that, and
if You have Prior repo r t ed
so I want to see that

22

decisions or prior communications, then I want to

23

see them.

24

You're bringing

25

movant in that regard'

I'm not going to have
the motion'

The

Produce them.
burden is on the

ODC

RAI'PH ROSENBERG COURT REPORTERS,
(

8O8)

524-2090/courtreportets9hawaii

I,NC

'

rt

' com

RECORD

: Pet.

E1-

and

1"1

/ 28 /

L7 Transcript

1

DUB

l.Aw
OFFIGES

Seven, raterfront Plaza
Suite 400
500 Ala Moana Boulevard
Honolulu, Hawaii 96813
Office (S08) 537-2300 (808) Dubin Law
Facsimile (808) 523-7733
www.dublnlaw.net

Voice Mait (808) 5491159 Tolt Free (SSS) Dubin Law E Mail: dubinlaw@.Jnsn.com Cellular(&00) 2274800

October 12,2001

HAND DELIVERED
Alvin T. lto, Esq.
Special Assistant Disciplinary Counsel
ffice of Disciplinary Counsel
1132 Bishop Street, Suite 300
Honolulu, Hawaii96813
RE: ODC 7031, Myron W. Sefiay, Jr., Complainant

Dear Mr. lto:
I am writing in response to your letter dated September 13,2001, with regard to
Mr. Serbay's generalized and cryptic letterto you dated August 21,2401.

Please note that Mr. Serbay's letter bears an ODC reference number of "67M'
which is that of Mr. Gyle/s first complaint against me - which suggests that not only
was this minor-image complaint instigated by Mr. Gyler, but that Mr. Gyler has
shared his first filings with you with Mr. Sefiay, and who knows how many others, in
which of course Mr. Gylers'
direct violation of the ODC's confidentiality rute
attomeys themselves have freely violated in the USDC proceedings as previously
pointed out by me - to color Mr. Serbay's views, and most likelywithout sharing with
him my responses.

-

Frankly, I do not understand Mr. Serbay's allegations.

1
DUBIN LAW OFFICE.
., October 12,2001
Alvin T.

First of all, Mr. Serbay was never my client. He had contracted with Mr. Gyler to
become his business partner as an additional class representative/plaintffi in the
case, but never became one since behind my back Mr. Gyler fed him a bill of goods
and, as I understand it from Mr. Gyler, Mr. Serbay agreed to and did rescind his
arrangement with the Gylers and entered into some agreement with the Gylers
instead to share whatever recovery the Gylers were to receive in a separafe action
after the class suit was dismissed, and presumably feels obliged to continue that
relationship now by piggybacking on to Mr. Gyle/s complaint (see, for instance, his
e-mail to me dated March 29, 2000, set forth in Exhiblt 1, and his subsequent,
amended agreement with Mr. Gyler making them partners, set forth in Exhibit 2;
unfortunately, Mr. Gyler has never shared with me a copy of the rescission
agreementwith Mr. Serbayexecuted sometime in late summer2000, I believe).

Second, I know of no "confidential memoranda, e.mails and letters" of his that I
submitted to the Court. Mr. Serbay was himself outspoken in his views, and freely
informed everyone of his opinions regarding the case, never requesting any
confidentiality and freety waiving same (see, for instance, the declaration that he
himself wrote and that I submitted to the Court at his insistence, criticizing roundly
the AOAO set forth in Exhibit 3).

Third, Mr. Serbay moreover expressed his critical views in writing to dozens of
AOAO owners with the bitterest of language imaginable, so it is therefore difficult to
understand what he is claiming was revealed of his confidences, especially since he
was not my client and nothing of his that I can find (which if in existence in any way
could thus be considered confidential) was ever disseminated by me (see, for
instance, some of the inflammatory e-mails he sent to everyone, including opposing
AOAO Board Members, set forth in Exhibit 4, which by the way were not filed in court
papers by me even though Mr. Serbay had never asked me to keep them or
anything else he disseminated confidential).
Fourth, to the extent that Mr. Serbay is intending merely to panot Mr. Gyle/s
August 1,2001, complaint, I submit herewith additionalcopies of my response to Mr.
Gyle/s similar assertions and incorporate that response herein (see, for instance, my
two supplemental swom statements submitted to you and to the Court, additional
copies of which are separately included herewith to complete the record of this new
grievance as well).

2

DUBIN LAW OFFICE.
Alvin T. lto, Esq., October 12,2001

Fifth, Mr. Serbay makes reference to somehow being prejudiced by the class suit
being dismissed ("the damage to me is incalculable at this time"). That complaint
seems to be inconsistent with his having rescinded his agreement with Mr. Gyler
behind my back, according to Mr. Gyler that is, in order to avoid becoming an
additional plaintiff in that suit which he never did become, inconsistent with the fact
that the class action was dismissed without prejudice due to my intervention in Mr.
Gyle/s motion and plans, inconsistent with the fact that he was never my client and
never paid me anything for the Gylers' suit, and inconsistent with the fact that the
Court gave him and anyone else the option of going forward with the class action suit
and required that Mr. Gierlach notifo all potential class representatives such as Mr.
Serbay of that option, yet he never responded to that court-ordered invitation.
Fnankly, it is a tribute to the wisdom of the other owners that, although apparently
Mr. Gyler has attempted to poison their minds against me as well and to drum up
false support for now his second grievance against me, only Mr. Serbay appear so
far to have fallen prey to Mr. Gyle/s many dishonest manipulations of the facts and
of the ODC's processes.

lf I can be of furtherassistance in this matter please let me know.
Very truly yours,

/s/
GVD/o
enclosures

Cery

'l;i:r

Du!!n

Gary Victor Dubin

3

Disciplinary Board

Office of DisciPlinary Counsel

ChairPerson

1132 Bishop Street, Suite 300

Charles T. KleintoP
Vice ChairPerson

Honolulu, Hawai'i 96813
Telephone (808) 521-4591

J. Michael Seabright
Sectetary

Chief Disciplinary Counsel

Diane D. Hastert

Carole R. Richelieu

Treasurer

Assistant DisciplinarY Counsel

Nchard A. Coons, CPA

Charlcs H. Hite
Michael T. Lee
Geoffrey M' Kam

Rustam A. Barbee
Corlis J. Chang

Katherine C. Desmarais

Douglas A. Crosier
Faith P. Evans
Gary M.Farkas, Ph.D', MBA
LYnn H. Higashi
Joyce Ingram'Chinn' Ph.D.

OfCounsel

Alvin T. Ito
Magali V. Sunderland*
rA Law CorPoration
lnvestigator

Millicent M.Y.H. Kim

Fred Oishi

Hon. EvelYn B. Lance (Ret.)
Hon. Clifford L. Nakea
Blake T. Okimoto
Jean E' Rolles, CPM
Canoll S. TaYlor

Research Paralegals

Darryn J. Manuel
Lisa Lemon-Monville

ThomasD. Welch

CONFIDENTIAI,

May 7, 2004
CERTTFTED MArL NO- ?ooo
RETURN RECEIPT REQUESTED

0520 0024 3685 9267

Gary Victor Dubin, Esq.
Pioneer Plaza
9OO Fort SLreet MalI, Suite L4L0

Honolulu, Hawai'i
Re: ODC 7031-

958L3

MYron W. SerbaY,

JT" Complainant

Dear Mr. Dubin:
-irru -i-nvest'igation
Asyouareaware,th-e.above.referencedethicsmatterhasbeen
has been reviewed by
f-i.ce.
of
our
by
inwest,igated
Board'
;--il,nGi of th-e Disciplinary
be.en determined that your
Based upon t,he invesLigation, it ha9
Rules of Professional
Hawai'i
conduct in this matter viofaila-if,*

Conduct.

dated september L3'
to respond to a.letter yoar
In t.his case, yolf failed iii"ft
restriond to the
that
reguesrted
2oo;, f rom thvi;* if?i"**
bv SeptePtt 27 20oL'

;;;i"t;t'ii1-ia

uy-r'lr. serbav

'

you ignored this office's september L3 ,- 2OOl letter
and subpoena Duces Tecum ira; served tipon you
respond.

until a subpoena
ordering you to

the
Bv vour conduct,
YoU violat,ed the following provisions of
'Prof
conduct:
essional
n'"rJi-i Rules of

Gary Victor Dubin, Esq'

May 7,
Page 2

2OO4

HRPC8.1(b)!Alawyer'inconnectionwithadisciplinary
mattershallnott<nowinelyfailtorespondto.a.lawful
demand foi-irri"t "tion f"rdm a disciplinary authority.
HRPC,8.4(d).Itisprofessionalmisconductforalawyer
brting the course of an ethics
to fail t.o cooperat"
proceedings'
disciplinary
of
in t""iig.iioo
HRPC8.4(a).Itis.professiona]-misconductforalawyer
of
to violate t,he rules
to violate or att,empl-another
induce
or
assisL
professi;;"l "Lna""i, kilowingly
ro do "","61 a;--;"-iirrougrr rhe- acts of another.
and the facts and
p-Ti.?:
Taking into account.youf ,lack-"f
$lscioline
have been deemed
your
violafions
case'
factors pr.=.rr-tlt-li-iftis
which
Admonition'
; p'rivate Informal
deserving of the impo-sition;f
ir-tft" 15ast severd form of sanction'
This]-etterconstitutesthe.impoSitionofsuchanlnformal
Admonition
ar-e-ia.ti"?a that this Informal
Admonition upon you. you p="}.*iJ"II
against
used
be
may
and
file
your
will become part of
Please
ProCe.edings'
f"I"iE-aisciplitt"-tf
any
vou in the event of
anv
of
event
the
pubric-in
u.;&a
il;;.*'inJt'ri"-ea*oniri6n ";;id
proceedings'
;;;;t;- f"rmal disciplinary
to demand a formal
you are further advised that you .have t,he ri-ght
for
recommendation
the
case,
in'wrricrr
hearing in this matLer,
pre.iudiqe.
formal
A
U=- riirtJiir"-r+i]r"'+t
"ih;-b; -ffied- t6--fnstitute formal
rnformal Admonirion
';;iil;t will- rirr
disciptinary
disposition
for yoyr Answer. TheDisciplinary
proceedings ,#a='J.'J#a.6;; you
-a.Eia.6
entire
the
by
td
rhdn
of rhis mar,r;; ,iri possible
t..ti.t by tlhe Hawai'i Supreme Court'
Board, subject, to
phases of the formal proceeding' Aindecision
aftrer completion of_all
a more
may or,qay- not' result
to institute formal proceedings
here
stated
is
'
severe form "t ai.".ipiine than
return the
demand a formal hearing., you must
should you decide
-6i t,o
the line
on
s-igriature
yoYr
*itf,
tt i" Leiterenclosed "opy
ten
within
ie|eive your demand
provided. rf1 r[i" ;ia.;;;;;-tr,i" letrer,
have
to
""r
deemed
be
witt
you
-;a-;iri-; matter will be considered
days of your r.l?ipJ.a or
waived rhe right ro rr"rri-tr-g,
;I;F;a titi, tf,e-rniormal edmonition imposed'
V"ry t,rulY Yours '

t^r

ALVIN T. ITO
sFecrar, AssrsrAl{T DrscrPr,rNARY
couNsEt,

ATf

:

fh

enclosure

Gary Victor Dubin, Esq'
May 7, 2004
Page 3

letter and understand
I have read this
-f ft.teby
to accept
its contents.aamonilioir refuse
that
demand
;;; i;f;tmai
-and
matter'
this
in
held
be
l'^E"i*ii-iiearing
Gary Vict,or Dub

Dated:

.l

Esq

1

Dubin

Law

900 , .rrt Street Mall
Suite 1410, Pioneer Plaza
Honolulu, Hawaii 96813
(808) 537-2300 (808) Dubin Law
Facsimile (808) 523-7733
Toll Free (888) Dubin Law

E-Mail: dubinlaw@msn.com
www.dubinlaw.net

May 20,2OO4

BY HAND DELIVERY
Alvin T. lto, Esq.
Special Assistant Disciplinary Counsel
Office of Disciplinary Counsel
1132 Bishop Street, Suite 300
Honolulu, Hawaii96813
RE: ODC 7031 (Myron W. Serbay, Jr.)

DearMr. lto:
am in receipt of your letter dated May 7,2004. For the reasons set forth below,
since this matter was not previously discussed with me, and I have never therefore
had any notice that such action would be taken or any opportunity to explain the
circumstances sutrounding my now challenged delay, I am writing to request
reconsidenation, in the absence of which I accept the informal admonition proposed,
asking onlythat this letterof explanation be also placed in myfile.
I

First of all, I wish to emphasize that I have always taken my responsibilities to
cooperate with your office seriously and have always responded to your inquiries
with a complete statement as you know, as quickly as I could, and I have never
received any discipline from the ODC in nearly 24years, but also please known that
my responsibilities to clients and to courts have similarly required that I must weigh
those responsibilities in scheduling as well.
It is true that I did not respond to yourwritten inquiry in the above-entitled matter,
and if lhat automatically triggers an informal admonishment, then I fully understand,

as I was late, and you need not read any further, but if there is discretion in this
matter I would hope that you and whoever reviewed this matter for the Board might
reconsider for the following brief reasons:

"\'
Dubin Law Offices
Alvin T, lton Esq., May 2Or 2OO4

1. This complaint was lodged years ago, and the files are in stomge, so I have
had to rely solely on my memory and my tr:acing what was happening during the time
frame in question from secondary sources.

2. Reviewing my calendar, for instance, I find that I was occupied at the time
responding to you conceming ODC complaints from two thoroughly dishonest
ctients, Ms. Toomalatai (ODC 7017) and Mr. Gyler (ODC 67M). At the same time, I
was completing a Seattle District ffice four-year IRS examination of the past 20
years of my income tax retums resulting from my experience with Judge Real, of
which I was cleared of any wrongdoing by the ODC, yet the IRS was seeking, with
interest penalties, nearly $8,000,000 from me. And, reviewing a letter I sent at the
time to the lRS, a copy of which is attached, I note that I was also distracted by
several client emergencies, like many attomeys in town, as a result of the 9/11
terrcrist attack, which occuned but two days before your letter was sent to me.
3. Before I had a chance to respond to your September 13,20O1, letter, I had to
travel to Seattle to sit down with my accountant and the IRS for a final week-long
examination session, which is probably the reason I forgot to seek an extension from
you regarding Serbay which examination proved quite productive as the IRS
concluded that it had made a mistake in its Honolulu audit and that ratherthan owing
the IRS anything for the years in question it actually owed me a six-figure refund!
That of course was an urgent matter that required my immediate attention as well,
after a battle with the IRS that began a decade earlier. Please put yourself in my
situation.

-

4.1 am unaware as I write this letterwhy otherwise I did not request an extension
from you in which to respond to the Serbay complaint, since you have always been
quite understanding in granting requested extensions, and four weeks in which to
respond is hardly evidence of ethical misconduct; and I did eventually respond fully
to your initial inquiry, and can only assume that myfailure to do so earlierwas due to
the above-referenced truly emergency circumstances and was certainly not
evidence of any willful intention on my part to avoid your important processes.

-

5. ln fact, as you know, I feel that I have - if anything - over-responded to your
requests in the past for information, despite my own complaints to you that the ODC
does not exercise enough control over complainants, some who unfortunately
believe that by insincerely complaining to the ODC and abusing your processes they
can unjustly embanass counsel and secure some financial advantage in the process
or emotional vendetta against the system as a whole.

2

-\
Dubin Law Offices
Alvin T. lto, Esq., May 2Or 2OO4

6. You will recall, for instance, Mr. Bringas' attempts to defame me, by for
instance generating complaints against me from several clients, such as Ms. Mores
(ODC 7358) in much the same way as did Mr. Gyler contact Mr. Serbay and
stimulate him to complain about me as a misguided way of seeking to extort money
from me - while later Ms. Mores withdrew her complaint as unfounded, having been
lied to by Mr. Bringas, and she and her husband remain my clients to this day; yet
even after she withdrew her complaint against me I insisted that I fully answer and I
cooperate completely with the ODC
did nonetheless answer, wishing
nevertheless.

-

to

7. Speaking of Mr. Bringas, he then filed his own grievance against me (ODC
7474), claiming that lwas his client, and he then informed the ODC that he had filed
suit against me for legal malpractice, as you may recall, and sent a copy of his letter
to you, along with a copy of his legal malpnactice suit against me, to severaljudges
before whom I practice, to federal and state agencies galore, and to the Better
Business Bureau, TV stations, and the DCCA and even to some of my clients and
who knows who else - yet the ODC said it had no authorityto control complainants,
wh1e I was being falsely defamed wtth his claims, yet bound by Supreme Court
confidentiality rules.
8. To highlight my point, Mr. Bringas waited something like a yearaftertelling you
he had sued me before actually filing his amended complaint against me in an action
wherein he was suing other attomeys, in Civil No. 02-1-21M; yet he never even
secured a summons for service as the docket sheet shows, and never served
anything on me or on anyone else in that suit, and after that 'Tiling" served his
malicious purposes, he allowed that case to be involuntarily dismissed without a
single actual court proceeding, as shown in the docket entry attached.

While I am not asking for an award, the ODC I hope is aware of the fact that the
system that you are administering can be and is being abused by some parties and
causing a great deal of unnecessary work for some of us.
Notwithstanding that professional burden, I do not believe that my conduct in the
Sebay matter merits any discipline, even an informal admonition, and to the extent
that there is any discretion in the matter, I request that the matter be reconsidered, or
otherwise I have come to the unpleasant conclusion that the burden of formal
proceedings upon me and upon the resources of the ODC is outweighed in this
instance by practical time considerations.

3

Dubin Law Offices
Alvin T. lto, Esq., May 2Or 2OO4

Thank you foryour consideration.
Very truly yours,

/d
GVD/o
enclosures

CorY Victor Dubln

Gary Mctor Dubin

4

Office of Disciplinary Counsel

Disciplinary Board

I 132 Bishop Street, Suite 300

Chairperson

Honolulu, Hawai'i 96813
Telephone (808) 521-4591

Charles T. Kleintop
Vice Chairperson
J. Michael Seabright

Chief Disciplinary Counsel

Secretary

Carole R. Richelieu
Assistant Disciplinary Counsel
Charles H. Hite
Michael T. Lee
Geoffrey M. Kam
Katherine C. Desmarais

Diane D, Hastert
Treasurer

Richard A. Coons, CPA
Rustam A. Barbee
Corlis J. Chang
Douglas A. Crosier
Faith P. Evans
Gary M.Farkas, Ph.D., MBA
Lynn H. Higashi
Joyce Ingram-Chinn, Ph.D.

OfCounsel

Alvin T. Ito
Magali V. Sunderlandt
rA Law Corporation
Investigator

Fred Oishi

MillicentM.Y.H. Kim

Research Paralegals

Hon. Evelyn B. Lance (Ret.)
Hon. Clifford L. Nakea
Blake T. Okimoto
Jean E. Rolles, CPM

Darryn J. Manuel
Lisa Lemon-Monville

Carroll S. Taylor

May 25,

Thomas D. Welch

CONFIDENTTAL

2OO4

Gary Victor Dubin, Esq.
Pioneer P}aza
900 Fort Street MalI, Suite

Honolulu, Hawai'i
Re

L4LO

968L3

oDc 7031
Myron W. Serbay, ,fr.

Complainant

Dear',:Mr. Dubin:

This is in response to your letter dated May 20, 2004.
Please be advised that there is no reconsideraLion, for the
complainant of the Reviewing Board Member's determination of an

Inf ormal Admonit,i-on.
Therefore, as no rejection was received from you within the required
time period, the Informal Admonition is imposed and this matter is

now concluded.

Very truly yours,

ALVIN T. ITO

SPECIA]. ASSISTA}IT DI SCI PLINARY
COUNSEI,

ATI : fh

l

Before the

1

D]SCIPLINARY

2

BOARD

of the

3

HAWAIII

4

SUPREME COURT

5
6

OFFICE OF DISCIPLINARY

7

couNsEL,

Petitioner,
GARY

V.

No.

1

6-

0

-2I3

)

so?go ,,-:
DISCIPLINARY

vs.

9

ODC

16-0-151

I

1-0

)

BCIARD

DUBTN,

Respondent.

11

l.j r

)

OF THF
HAWAI! st"f PRrtdE eoi"JRT
"n,'u

RECHIVffiM

0,o

I2

D

Lcc,rvt

laLr

v0 t7

MONTI"I

T4

HEARING

15

Taken at the Office of Disciplinary

L6

Merchant Street, Suite 1600, Honolulu, Hawaii

t7

commencing at 9:20 a.m. on November 28, 2017,

Counsel, 20L
96813

BEFORE: HEARING OFFICER ROY HUGHES' ESQ.

2t
Reported By:

SUB

M. FLfNT, RPR' CSR 274

Notary Public,

23

State of Hawail

24

25
(

f

(VOLUMEVTT),

20

22

,l

_

18

19

.1t

YEAE

,r*r, d:49 Prn w *h

13

I
,.1

RALPH ROSS$BSRG COURT REPORTERS I rlrc
808 ) 524-20 90 /courtreporters
9hawaii . rr. com

148
1

MR. WAIHEE: RR-1.

2

MR. KIM:

3

about.
MR. DUBIN: But I'11 number them any

4

5

HEARING OFFICER HUGHES: WC11,

going to identify

them and iniroduce

o

MR. DUBIN: OkaY. RR-l-.

9

HEARING OFFICER HUGHES:

10
11

way

wants me to number them.

the hearing officer

6
1

I don' t know what you' re tal king

this

you're

as

RR-1.

And that is

and I want you to give a copy to Mr' Kim'
MR. DUBIN: Okay. I'm going to l-abeI it

13

RR-1 and Provide him with another coPY marked RR-1'
And relevant t.o the Ito matter he' s j ust

T4

talked about' it

15

ODC

I6

October l2Eh, 2001, to AIvin Ito from mYself , and
this is so old that aIl I have is mY records. I
don't have the oDCrs records. Mr. Kim has those.

L2

T7
1B

19

is

this

is mY corresPondence to

twentY or so years ago.

And a second Ietter,

That is a letter

May 208h, 20I4 [sic1

2t

toMr.Itoregardingthismatter,thisSerbay
And this is rebuttal completely to what
matter.

22

Mr. Kim said.

20

23

AndthefrontofthisiscorreSpondence
chief Disciplinary

counsel,

24

with carole Richelieu,

25

in Ig9g, confirming that I was exonerated by the
RALPH F.OSENBERG COURT REPORTERS, LNC
(8O8) 524-2090/coartteportets@hawaii ' rr ' com

L4

counsel for anything to

of Disciplinary

1

office

2

with Judge Real and my three misdemeanor

do

convictions.
And specifically,

4

put it

this

proof,

6

until

1

would be no reciprocal

o

california

I had CaroIe Richelieu's

of

states that

specifically

way

q

to make an offer

approval that there
based upon what

discipline

10

was doing, I would sign the stipulation
otherwise, I would not sign the
with california.
And Ms. Richel-ieu had
stipul-ation with CaIif ornia.

11

advised me that I could go ahead, there would be

T2

reciprocal

o

v

MR. KIM:

13
T4

disciPline,

based uPon
She didn't

MR. DUBIN: Well-, this

16

This is what the oDC did.

1,7

there at the time.
MR. KIM:

LB

to

do

is what happened

'

And Mr. Kim wasn't even

The chief does not have
that on her own.

authority

to waive a claim like

collateral

But the other thing is that that is a
matter that has nothing to do with either

20

2t

have authority

that.

t-5

T9

no

24

Joe Smith complaint or the aqgravating or
mitigating factors that we put in via E- 1 concerning
history with the State Bar
his previous disciptinary

25

of California,

22
23

the

DCCA

RALPH

(8Og)

whlch is in evidence

'

524-2090/coartreportets9hawaii

TNC

'

rr

' com

489

does, because

MR. DUBIN: Of course it

1

3

t,his is showing that I would not have signed that
stipulation but for the fact that the Chief

4

Disciplinary

2

7

What else do

HBARING OFFICER HUGHES:

5
6

Counsel

have besides RR-1 that you want to bring in?
MR. DUBIN: On this matter, this is it

I

HEARING OFFICER HUGHES: OkaY.

9

MR. DUBIN: Now I ' d I i ke to resPond

'

I

be put in evidence, Qt not' over

10

ask that this

11

respondent's obj ections,

I2

what Mr. Kim testified

but this

to

refers directly

to.
I didn't

testifY.

13

MR. KfM:

t4

HEARING OFFICER HUGHES:

15

You

Mr. Kim has not

testified.
MR. DUBIN: Well-, then there's

16
L7

the record then.

what this

18

special assistant

disciplinary

19

complaint

was

is is

nothing in

Mr. Ito was

counsel.

a

Thls

a Mr. Serbay, who was not mY client.

2L

The compLaint of Mr. Serbay was denied. Mr. Ito
claimed that I was Late by one day in responding to

22

him.

23

letter

24

behind aIl

20

25

Subsequent to this
it

talks
this,

and by the wdy, in this

about Mr. Gyler, the gentleman
who was mY client.

Subsequent to this,

Mr. Ito had filed

RALP H ROSENBEP.G COURT REPORTERS I TNC
( 8 O 8 ) 524 -20 90 / coartrepoztersQhawaii . rz. com

